<html>
<title> - EXAMINING THE CONCERNS ABOUT OBAMACARE OUTREACH CAMPAIGN</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
        EXAMINING THE CONCERNS ABOUT OBAMACARE OUTREACH CAMPAIGN

=======================================================================




                             JOINT HEARING

                               before the


                     SUBCOMMITTEE ON ENERGY POLICY,

                      HEALTH CARE AND ENTITLEMENTS

                                and the

                    SUBCOMMITTEE ON ECONOMIC GROWTH,

                  JOB CREATION AND REGULATORY AFFAIRS

                                 of the

                         COMMITTEE ON OVERSIGHT

                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 21, 2013

                               __________

                           Serial No. 113-39

                               __________

Printed for the use of the Committee on Oversight and Government Reform


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform




                  U.S. GOVERNMENT PRINTING OFFICE
82-107                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, JR., Tennessee       CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
PAUL A. GOSAR, Arizona               GERALD E. CONNOLLY, Virginia
PATRICK MEEHAN, Pennsylvania         JACKIE SPEIER, California
SCOTT DesJARLAIS, Tennessee          MATTHEW A. CARTWRIGHT, 
TREY GOWDY, South Carolina               Pennsylvania
BLAKE FARENTHOLD, Texas              MARK POCAN, Wisconsin
DOC HASTINGS, Washington             TAMMY DUCKWORTH, Illinois
CYNTHIA M. LUMMIS, Wyoming           ROBIN L. KELLY, Illinois
ROB WOODALL, Georgia                 DANNY K. DAVIS, Illinois
THOMAS MASSIE, Kentucky              PETER WELCH, Vermont
DOUG COLLINS, Georgia                TONY CARDENAS, California
MARK MEADOWS, North Carolina         STEVEN A. HORSFORD, Nevada
KERRY L. BENTIVOLIO, Michigan        MICHELLE LUJAN GRISHAM, New Mexico
RON DeSANTIS, Florida

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                    Stephen Castor, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director
      Subcommittee on Energy Policy, Health Care and Entitlements

                   JAMES LANKFORD, Oklahoma, Chairman
PATRICK T. McHENRY, North Carolina   JACKIE SPEIER, California, Ranking 
PAUL GOSAR, Arizona                      Minority Member
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
JASON CHAFFETZ, Utah                     Columbia
TIM WALBERG, Michigan                JIM COOPER, Tennessee
PATRICK MEEHAN, Pennsylvania         MATTHEW CARTWRIGHT, Pennsylvania
SCOTT DesJARLAIS, Tennessee          TAMMY DUCKWORTH, Illinois
BLAKE FARENTHOLD, Texas              DANNY K. DAVIS, Illinois
DOC HASTINGS, Washington             TONY CARDENAS, California
ROB WOODALL, Georgia                 STEVEN A. HORSFORD, Nevada
THOMAS MASSIE, Kentucky              MICHELLE LUJAN GRISHAM, New Mexico

  Subcommittee on Economic Growth, Job Creation and Regulatory Affairs

                       JIM JORDAN, Ohio, Chairman
JOHN DUNCAN, Tennessee               MATTHEW A. CARTWRIGHT, 
PATRICK T. McHENRY, North Carolina       Pennsylvania, Ranking Minority 
PAUL GOSAR, Arizona                      Member
PATRICK MEEHAN, Pennsylvania         TAMMY DUCKWORTH, Illinois
SCOTT DesJARLAIS, Tennessee          GERALD E. CONNOLLY, Virginia
DOC HASTINGS, Washington             MARK POCAN, Wisconsin
CYNTHIA LUMMIS, Wyoming              DANNY K. DAVIS, Illinois
DOUG COLLINS, Georgia                STEVEN A. HORSFORD, Nevada
MARK MEADOWS, North Carolina
KERRY BENTIVOLIO, Michigan
RON DeSantis Florida


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 21, 2013.....................................     1

                                WITNESS

Mr. Gary Cohen, Deputy Administrator and Director, Center for 
  Consumer Information and Insurance Oversight, Centers for 
  Medicare and Medicaid Services
    Oral Statement...............................................     7
    Written Statement............................................     9

                                APPENDIX

Questions for Mr. Gary Cohen from Chairmen James Lankford and Jim 
  Jordan.........................................................    58


        EXAMINING THE CONCERNS ABOUT OBAMACARE OUTREACH CAMPAIGN

                              ----------                              


                         Tuesday, May 21, 2013,

                  House of Representatives,
      Subcommittee on Energy Policy, Health Care & 
      Entitlements, joint with the Subcommittee on 
      Economic Growth, Job Creation and Regulatory 
                                            Affairs
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittees met, pursuant to call, at 10:09 a.m., in 
Room 2154, Rayburn House Office Building, Hon. Jim Jordan 
[chairman of the Subcommittee on Economic Growth, Job Creation 
and Regulatory Affairs] presiding.
    Present from Subcommittee on Energy Policy, Health Care & 
Entitlements: Representatives Lankford, Gosar, McHenry, Jordan, 
Walberg, DesJarlais, Woodall, Speier, Norton, Cartwright, 
Duckworth, Cardenas, Lujan Grisham, and Horsford.
    Present from Subcommittee on Economic Growth, Job Creation 
and Regulatory Affairs: Representatives Jordan, DeSantis, 
Duncan, McHenry, Gosar, DesJarlais, Collins, Meadows, 
Bentivolio, Cartwright, Duckworth, Connolly, Pocan, Kelly, and 
Horsford.
    Also Present: Representative Cummings.
    Staff Present: Ali Ahmad, Majority Communications Advisor; 
Alexia Ardolina, Majority Assistant Clerk; Brian Blase, 
Majority Senior Professional Staff Member; Molly Boyl, Majority 
Parliamentarian; Caitlin Carroll, Majority Deputy Press 
Secretary; Katelyn E. Christ, Majority Professional Staff 
Member; Drew Colliatie, Majority Professional Staff Member; 
Gwen D'Luzansky, Majority Professional Staff Member; Adam P. 
Fromm, Majority Director of Member Services and Committee 
Operations; Linda Good, Majority Chief Clerk; Meinan Goto, 
Majority Professional Staff Member; Tyler Grimm, Majority 
Professional Staff Member; Mark D. Marin, Majority Director of 
Oversight; Emily Martin, Majority Professional Staff Member; 
Tegan Millspaw, Majority Professional Staff Member; Scott 
Schmidt, Majority Deputy Director of Digital Strategy; Sharon 
Meredith Utz, Majority Professional Staff Member; Jaron Bourke, 
Minority Director of Administration; Yvette Cravens, Minority 
Counsel; Devon Hill, Minority Research Assistant; Jennifer 
Hoffman, Minority Press Secretary; Nicholas Kamau, Minority 
Counsel; Una Lee, Minority Counsel; Jason Powell, Minority 
Senior Counsel; Brian Quinn, Minority Counsel; and Rory 
Sheehan, Minority New Media Press Secretary.
    Mr. Jordan. The committee will come to order. We want to 
welcome folks today.
    Mr. Cohen, we will get to you in just a second, but you 
know how it works: you have to listen to us first, then we get 
to you. So we will do our opening statements.
    And Mr. Lankford is on his way and Mr. Cartwright is on his 
way, but, in the interest of time, we will get started.
    There is a lot we don't know about Obamacare, but the more 
we learn, the worse the law seems. We know that Obamacare 
remains unpopular. We know that it has sparked considerable 
confusion and certainly uncertainty. Frankly, I spoke to 
business people yesterday in our district and this was one of 
the main topics we talked about. We know that many businesses 
are refusing to hire and expand because of the law.
    Now the Administration wants to spend billions of dollars 
promoting the law, money that would be much better spent on 
patient care or something else. If it is so good, why does the 
Administration have to spend so much money in advertising? 
Because of Obamacare's complicated mix of regulation, taxes, 
subsidies, and mandates, premiums for relatively young and 
healthy people are projected to spike next year. For millions 
of these individuals, premiums will increase by 50 percent or 
more, and, of course, lots of these young people are currently 
paying lower rates, the very groups of individuals that the 
Administration, through navigators and assisters, most wants to 
enroll in the exchanges.
    The increased premiums will make millions of Americans 
worse off. Other individuals will only be applying for 
insurance and exchanges because of Obamacare's expensive 
subsidies, which will greatly exacerbate Federal deficits 
beginning next year.
    CBO estimates that the law will cost $1.8 trillion over the 
next 10 years, a price tag that seems to rise each year.
    We know that there is a major problem in California. The 
California State legislature decided to conceal spending on all 
of its exchange contracts, including funding for the State's 
Assisters Program. This means Federal taxpayers won't have 
knowledge of how California is spending hundreds of millions of 
their dollars.
    In addition to all the funding, training, and oversight 
concerns about navigators and assisters, the overreach of the 
Administration in its overall implementation efforts is also 
stunning. For example, Congress has denied Health and Human 
Services Secretary Kathleen Sebelius several additional 
requests for pouring more taxpayer money into the law, so the 
Secretary has taken money, in many cases, without clear legal 
authority from different sources to fund Obamacare.
    HHS officials admitted to this committee that the Secretary 
lacks legal authority for this Assisters Program, a program 
created solely to get around Obamacare's explicit prohibition 
on using State-established grants to fund navigators in 
exchanges established by those States.
    The Secretary has failed to respond to an April 19th, 2013, 
letter from the committee relating to the Secretary's 
transferring of funds for Obamacare implementation. More 
recently, however, is the Secretary's brazen fundraising push, 
despite Federal ethics regulations forbidding any department 
official from fundraising in a professional capacity.
    Recent reports indicate that the Secretary has placed 
multiple phone calls to help insurance, pharmaceutical, and 
hospital executives over the past three months, asking them to 
contribute money to nonprofits leading Obamacare outreach 
efforts. One such organization, Enroll America, a spinoff of 
Families USA, which lobbied strongly for the passage of the 
law, HHS actions to elicit donations on behalf of organizations 
connected to the Administration are even more troubling.
    Finally, in light of the revelation of IRS's targeting of 
conservative groups applying for tax-exempt status, it is 
crucial for the American people to understand that Obamacare 
tasks the IRS with enforcing nearly 20 new tax laws. It is 
amazing to me. The very organization who is charged with 
enforcing Obamacare was systematically targeting conservative 
groups who came into existence because they opposed Obamacare, 
and it was targeting them for over a two year time period.
    It is also important to remember that the IRS is building 
the largest personal information data hub the Federal 
Government has ever attempted. The IRS has a central role in 
Obamacare's very complicated subsidy scheme. According to 
Treasury's own analysts, many taxpayers who do everything right 
will still face significant harm from the scheme. According to 
the Taxpayer Advocate, taxpayers who did not update their 
household information during the year, such as income, marital 
status, change in family size, or receipt of employer-sponsored 
insurance, may find that they owe a significant amount of money 
at the end of the year, money they likely do not have.
    In fact, the IRSs role in enforcing Obamacare is tied with 
the Navigator and Assister Program. If navigators and assisters 
incorrectly fill out people's health insurance applications and 
individuals receive subsidies to which they were not entitled, 
then the IRS will go after the individuals for the overpayment. 
The insurance companies who receive the overpayment and the 
navigators or assisters who provided the bad advice won't face 
any harm.
    With less than four months to go before the launch of the 
health care insurance exchanges, we must focus on what can be 
done to save our health care system from the huge train wreck 
that Obamacare implementation has become.
    I hope, Mr. Cohen, that you can tell us that the Health and 
Human Services has given much greater thought to the navigator 
and assister rule, and will issue a final rule that is 
consistent with statutory authority which protects consumers 
and which increases standards for navigators.
    With that, I would yield to the gentlelady from the 
District of Columbia, Ms. Norton.
    Ms. Norton. Thank you very much, Mr. Chairman. I must take 
exception to your attempt to link the Affordable Health Care 
Act with the present investigation of IRS. To say that is a 
stretch is to give you too much credit.
    I thank the members and our witnesses, Mr. Cohen, who is 
before us now.
    Until recently, I had thought that one of the major 
differences between the Banana Republics and other pseudo-
democracies was that in this Country, once a law was passed or 
once the Supreme Court has spoken, the law was the law and the 
law was carried out. This has been always, until now, a Country 
where respect for law and the rule of law was unquestioned, 
even when our side lost a particular bout or a particular round 
and a law came forward with which we disagreed. The nature of 
democracy is you implement the law that has been passed by the 
majority.
    Now, last summer, the Supreme Court ruled, and on this 
question the Supreme Court is the law of the land, and they 
ruled that the Affordable Health Care Act was constitutional, 
and there was no question that this was the law of the land. Of 
course, that is very good news for millions of Americans who 
don't have health insurance and every day are getting access to 
health insurance.
    But the Republican majority is still fighting the 
Affordable Health Care Act as if it were not the law of the 
land and if they had not taken an oath to uphold the law of the 
land, whatever that law was. Just last week, I am not sure 
whether it is because they have no agenda whatsoever for the 
113th Congress and they needed something to fill the time, but 
they passed, once again, the 37th repeal of the Affordable 
Health Care Act, to giggles and scorns throughout the United 
States.
    You keep that up, and more and more no one takes you 
seriously as a legislature.
    Like that vote, today's hearing is merely an attempt to 
obstruct the law and the rights of American citizens to health 
insurance. It is time to assure that the law of the land is 
carried out effectively and efficiently, instead of trying to 
undermine the law of the land as if this were not a democracy.
    Congress intended that consumers receive assistance and 
information in the process of enrolling in the new health care 
options. After all, this is a new law, an unprecedented law. 
Accordingly, the Navigator Program was created by Congress to 
serve as a tool to help educate and enroll citizens. The reason 
for the Navigator Program is simple: reducing health care 
costs, which I had assumed everyone wanted to do, requires that 
everyone be covered; that everyone be in the insurance pool. 
Navigators are helping people to get health care coverage, some 
for the first time in their lives, and in the process lower 
health care costs for everyone in the Nation. The more people 
in the pool, the less health care costs everybody in the United 
States.
    Furthermore, the model for the enrollment efforts of the 
Affordable Care Act is very well established. Much the same 
model was used more than two decades ago to implement the State 
Children's Health Insurance Program. In some States an 
enrollment assister, as she is called, helped consumers enroll, 
just like Congress intended for the health exchanges created 
through the Affordable Health Care Act.
    As of today, not a single grant application for the 
Navigator Program has been reviewed and no grants have been 
awarded as of yet. It is, therefore, premature to say much of 
anything about what the program is doing. I hope that we can 
avoid speculating about the worst case scenarios that haven't 
happened and will sincerely work toward the efficient and 
effective implementation of health care that lowers health care 
costs for us all.
    That is within our reach if we will fulfill what Congress 
intended in passing the Affordable Health Care Act and, I might 
add, what the law now demands for everyone who took the oath to 
uphold the law as a member of the United States Congress, and I 
yield back.
    Mr. Jordan. I thank the gentlelady.
    We now turn to the chairman of the committee, and let me 
just say I am sure, on behalf of the whole committee, we are 
certainly thinking about the folks in Oklahoma, in your 
district and surrounding areas, and praying for all that they 
have to deal with and what you are dealing with as a member.
    So we now recognize the chairman, Mr. Lankford.
    Mr. Lankford. Thanks, Jim.
    And thank you, so many people that have prayed for us for 
what is going on in Oklahoma right now. These are incredibly 
difficult days for a lot of families there.
    Last month, my subcommittee held a hearing on key problems 
in America's health care system. We heard testimony about the 
lack of transparency in competition in health care markets, 
about widespread medical errors, and about rising health care 
costs. Four years ago, Congress created the Affordable Care Act 
to attempt to resolve these issues. I strongly believe that the 
Affordable Care Act actually creates more problems than it 
solves, and I want to do everything that I can to protect the 
people in my district from the harmful effects of this law.
    But it is the law of the land and the implementation is 
beginning. Congress has an important oversight role to ensure 
the Administration follows the law during its implementation 
efforts and that implementation harms as few people as 
possible.
    Obamacare requires that exchanges make grants to at least 
two organizations in each State with a Federal exchange to 
serve as a so-called navigator, an entity responsible for 
finding people without insurance and encouraging them to sign 
up. However, Obamacare explicitly prohibited State-based 
exchanges from using Federal grants for navigators.
    Now we understand that a twin program, called In-Person 
Assisters, has been created by HHS funded with Federal grants. 
In fact, during a briefing last month, HHS officials confessed 
to Republican and Democratic staff that there is no statutory 
authority for the Assisters Program.
    On April 19th and May the 6th, Chairman Issa, Chairman 
Jordan, and myself sent letters to Secretary Sebelius outlining 
many of our significant concerns with the agency's plans for 
these outreach programs. We still have many unanswered 
questions. Our letter still has not been responded to.
    Has HHS mandated a criteria for individuals who can be 
navigators or assisters? For instance, could felons, 
individuals convicted of identity theft, high school dropouts 
be navigators and handle sensitive and personal information?
    Is there an expectation that a navigator or an assister 
applicant will have any prior knowledge about the functioning 
of health insurance markets? Currently, the training for 
navigators and assisters will only be 20 to 30 hours of online 
training and will contain tests after each module that can be 
taken an unlimited number of times.
    Has HHS developed an oversight plan? For instance, are 
there plans to check with individual navigators or assisters to 
evaluate their job performance? What if there are reports of 
misconduct and wrongdoing of individual navigators or 
assisters?
    There are conflicting reports if the State requirements for 
licensing will apply to navigators. It is also uncertain if 
they will have to carry errors and omissions insurance. It is 
even uncertain if navigators will face any consequences if they 
give wrong tax or insurance advice, since they will be dealing 
with specific tax references that will apply to their next 
year's tax.
    There are also media reports that the director of HHS has 
made calls to solicit health insurance executives, 
pharmaceutical executives, and hospitals to donate large sums 
to nonprofits responsible for the Obamacare outreach efforts. 
According to The New York Times, several executives said they 
were uncomfortable with the discussions because the Federal 
Government has the power to approve or reject the health plans 
they want to sell in insurance markets that will be run by the 
Federal officials in more than 30 States. These actions unduly 
pressure private companies to financially support 
implementation and promotion efforts, fearing retribution from 
the Department of Health and Human Services if they do not 
contribute to organizations like Enroll America.
    With the October 1 enrollment period looming, these 
problems must be addressed now. The Administration must assure 
us that individuals facing financial security will be protected 
and that taxpayer dollars will not be abused during the 
implementation of this law, and the Secretary must stop using 
unethical, if maybe not illegal, we don't know yet, methods to 
fund the law's implementation.
    I look forward to hearing from our witnesses and further 
discussing our concerns.
    Thank you, Chairman Jordan.
    Mr. Jordan. I thank the chairman.
    All right, Mr. Cohen, you are up. Mr. Cohen is Deputy 
Administrator and Director for the Center of Consumer 
Information and Insurance Oversight at the Centers for Medicare 
and Medicaid Services. Just like government to have that long 
title there, Mr. Cohen. We appreciate you being here. We swear 
folks in at this committee, so if you will stand up, raise your 
right hand.
    Do you solemnly swear or affirm that the testimony you are 
about to give will be the truth, the whole truth, and nothing 
but the truth, so help you, God?
    [Witness responds in the affirmative.]
    Mr. Jordan. Let the record show the gentleman answered in 
the affirmative.
    You are now recognized for five minutes. You know how this 
works. You have the lighting system in front of you. Make sure 
you pull the mic close and fire away.

                       WITNESS STATEMENT

                    STATEMENT OF GARY COHEN

    Mr. Cohen. Thank you, Chairman Jordan, Chairman Lankford. 
On behalf of everyone at CMS, Mr. Lankford, we certainly send 
our thoughts to the people in Oklahoma at this difficult time 
and certainly will do anything that we can to help out in that 
difficult situation.
    Thank you for the opportunity to discuss the CMS Navigator 
Program today. Before I begin, I want to note that we have 
received the letter from the chairs of the subcommittees and 
are working to provide you and your staff with the information 
you have requested as quickly as possible.
    Over 40 million of our fellow citizens and neighbors live 
daily with the insecurity of not knowing how they will pay for 
the medical care which they and their families need. The 
uninsured are one diagnosis away from medical bankruptcy. They 
often do not receive the preventive care and early diagnosis 
and treatment that are associated with better outcomes and 
lower costs. When the uninsured do seek treatment, it is all 
too often at the emergency room, and every American business 
and taxpayer helps pay for the uncompensated care that is 
provided there.
    The new health insurance marketplaces will fundamentally 
change that reality for these Americans. The marketplaces are 
precisely what the name describes: a place where consumers and 
businesses can find health coverage options. Consumers will be 
able to compare costs, benefits, and cost-sharing in order to 
choose a plan that is right for them, their families, and their 
employees. If eligible, consumers and businesses will be able 
to receive help in paying the premiums through premium tax 
credits that lower the cost of premiums right away, cost-
sharing reductions, or a small business health care tax credit.
    Ensuring that consumers and businesses participate in the 
marketplaces requires, of course, that they learn about the 
benefits that these marketplaces have to offer and that they 
get the help they need in order to take advantage of those 
benefits. This is a significant undertaking.
    We know quite a bit about the uninsured Americans we need 
to reach. Many currently do not have health insurance, so the 
transaction of selecting, applying, and enrolling in health 
coverage may be unfamiliar to them.
    Twenty percent of the uninsured have not completed high 
school and nearly 10 percent live in a household that does not 
have an English-speaking adult. To inform these people about 
their new health insurance options, information must be 
provided by people connected to the community in a way that 
they can understand.
    The existing insurance market clearly has not served these 
millions of Americans well. So while we know that more 
traditional ways of reaching them, such as the marketing 
efforts that insurance companies and agents and brokers will be 
doing will be important, we also know that we need members of 
the community to speak neighbor to neighbor to get the word 
out.
    For that reason, the Affordable Care Act authorizes, and 
CMS is implementing, a variety of ways to provide outreach, 
education, and enrollment assistance to the uninsured. The 
Navigator and In-Person Assistance Programs will help Americans 
enroll in affordable, high-quality coverage beginning on 
October 1. These programs provide funding for trained helpers 
who must maintain expertise in eligibility enrollment and 
program specifics; raise public awareness about the 
marketplace; provide consumer-focused information and services 
in an easy to understand, fair, accurate, and impartial manner; 
and help people enroll in a qualified health plan through the 
marketplace.
    On October 9, CMS published a funding opportunity 
announcement that uses cooperative agreements to fund 
navigators in federally-facilitated or State partnership 
marketplaces. Applications are due on June 7. I am pleased to 
report that we have received over 830 optional letters of 
intent from a variety of organizations. We expect to receive a 
similarly robust number of applications for the Navigator 
cooperative agreements by the June due date. This high level of 
interest and the competitive application process will ensure 
that only the most qualified individuals and organizations will 
be selected to participate as navigators.
    The application process to become a navigator is rigorous 
and extensive. Applicants must provide detailed information 
about how they plan to perform the navigator duties, their 
estimated budget, their track record and accomplishments, and 
the expertise of their personnel. Applications will be scored 
by an expert objective review panel and screened by our grant 
managers to ensure that applicants have the business management 
capability to successfully perform these duties, and that their 
proposed budget is allowable and reasonable.
    Once the successful applicants are chosen, navigators must 
complete a 20-to 30-hour long training program and must pass an 
exam prior to beginning to help consumers. Grantees will be 
monitored by CMS based on their quarterly financial and 
progress reports to make sure they are meeting the program's 
goals, as well as its terms and conditions. CMS may terminate 
any award for violation of the terms and conditions of the 
award, including failure to perform award activities in a 
satisfactory manner; improper management or use of award funds; 
or fraud, waste, abuse, management or criminal activity.
    HHS awards grants for more than 300 programs, including 
consumer outreach and education programs, such as the State 
Health Insurance Assistance Program for Medicare beneficiaries, 
the nationwide Senior Medicare Patrols Program, and the 
Connecting Kids to Coverage Program. The Navigator Program 
follows this tradition of responsible grant-making for consumer 
education for newly developed marketplaces. We are confident 
that the Navigator and State-based In-Person Assistance 
Programs will provide consumers with the high quality help they 
need as they consider their health coverage options.
    I appreciate the subcommittees' interest in this program 
and would be happy to answer your questions.
    [Prepared statement of Mr. Cohen follows:]
    [GRAPHIC] [TIFF OMITTED] 82107.001
    
    [GRAPHIC] [TIFF OMITTED] 82107.002
    
    [GRAPHIC] [TIFF OMITTED] 82107.003
    
    [GRAPHIC] [TIFF OMITTED] 82107.004
    
    [GRAPHIC] [TIFF OMITTED] 82107.005
    
    [GRAPHIC] [TIFF OMITTED] 82107.006
    
    [GRAPHIC] [TIFF OMITTED] 82107.007
    
    [GRAPHIC] [TIFF OMITTED] 82107.008
    
    [GRAPHIC] [TIFF OMITTED] 82107.009
    
    [GRAPHIC] [TIFF OMITTED] 82107.010
    
    [GRAPHIC] [TIFF OMITTED] 82107.011
    
    Mr. Jordan. Thank you, Mr. Cohen. Forty seconds to spare. 
We appreciate that.
    The gentleman from Oklahoma is recognized for five minutes.
    Mr. Lankford. Mr. Cohen, thank you for being here, and this 
is a brand new program, so we will have additional questions as 
you are pulling this together, and the CMS team and HHS, and 
for us, as well, as we are trying to oversee it and understand 
it a little bit more.
    What is the difference between a navigator and an assister?
    Mr. Cohen. The functions are essentially the same. The 
difference is that we really responded to requests from a 
number of States, recognizing that they have to have a 
Navigator Program that cannot be funded from Federal grant 
funds.
    Mr. Lankford. Right.
    Mr. Cohen. But in the first year of the program they also 
have an obligation, that is in the statute, to provide outreach 
and assistance to help people get enrolled, and in the first 
year of the program they don't have a funding source, which 
will come into place through user fees and so forth once the 
program is operational.
    Mr. Lankford. So is there a statutory authority, then, to 
create this State-based Navigator Program?
    Mr. Cohen. The statutory authority is the requirement in 
the Affordable Care Act that State-based exchanges and all 
exchanges provide outreach and education and enrollment 
assistance to people.
    Mr. Lankford. So you make an assumption that because the 
law says you need to have this, even though the law 
specifically states that only navigators go to Federal 
exchanges, you just assume they wrote the bill wrong and they 
meant you should also have this other program? Because I am 
trying to figure out the statutory authority to it. And I hear 
the assumption that you assume they are going to do it, and 
States like California, Colorado, this past week came up and 
said, hey, we don't have near enough money to be able to do 
this, asked for another $14 million just for their Assister and 
Navigator Programs; say we were promised enough, this is not 
enough. I get their frustration in trying to implement the law, 
I am just trying to figure out the statutory authority of 
creating a program that the law specifically says you just do 
this.
    Mr. Cohen. Well, the In-Person Assister Program is a 
program that is separate from the Navigator Program, it is a 
transitional program.
    Mr. Lankford. But it is pretty much the same.
    Mr. Cohen. The function that the people will be performing 
is very much the same.
    Mr. Lankford. So is there a reason you wouldn't call it 
State navigators and Federal navigators, just use the same 
term; these are State-funded navigators or these are Federal-
funded navigators?
    Mr. Cohen. Well, State-based marketplaces are required to 
have a Navigator Program that they fund. But as a transitional 
program during the establishment of the exchanges, only in the 
first year and before they are financially sustainable, States 
came to us and said----
    Mr. Lankford. We don't have enough money.
    Mr. Cohen. That is right.
    Mr. Lankford. Okay. We will have some follow-up on that.
    You mentioned in your opening statement about only the most 
qualified will be the individuals in there. I assume that you 
are requiring some basic background checks, that you are 
requiring some of the things to be able to prove these are only 
the most qualified. These will be folks that will have some 
familiarity with health care in the background or insurance in 
the background; they have gone through a background check; they 
have gone through a fingerprinting, you know that? Is that my 
assumption as well?
    Mr. Cohen. So I think if you look at the funding 
opportunity announcement you will see that the successful 
applicants will demonstrate both a past history of knowledge 
and expertise in this area and a track record of working in the 
community successfully in this area, as well as----
    Mr. Lankford. So a background in health care or a 
background in insurance, as well as a connection with the 
community?
    Mr. Cohen. One of the requirements that will be scored in 
the grant selection process is showing expertise in the private 
health insurance market----
    Mr. Lankford. I am sorry, Mr. Cohen, I don't mean to 
interrupt. That is for the organization. What about for the 
individuals that are actually going to be the navigators on the 
ground? Will there be a background check; will there be a 
requirement of competence beyond the 20 or 30 hours of online 
training?
    Mr. Cohen. We have left the States' flexibility to 
determine what specific checks need to be made on the 
individuals who will be performing this function.
    Mr. Lankford. So can the State, then, require to have a 
licensing as well?
    Mr. Cohen. What we have said is that State licensing is 
permitted. The only thing that is not permitted is requiring an 
agent broker license.
    Mr. Lankford. Would they be required like many States, my 
State included, that they have errors and omissions insurance 
if you are handling insurance information? So if they give 
someone bad advice, for instance, if they are going to advise 
them, say, here is how much your subsidy is, but if they 
punched it in wrong, next year that individual is going to get 
a huge tax bill. So this person is giving tax advice at their 
door, basically, as well as health care advice. Will there be 
some errors and omissions insurance required; will that be 
allowed by States as well?
    Mr. Cohen. So I actually don't think that navigators are 
going to be giving tax advice, Congressman. I think that is 
really kind of a misconception of their role.
    Mr. Lankford. Will they help determine are you eligible for 
the subsidy?
    Mr. Cohen. No, they will not. That will be determined 
through the application process that each person will have to 
go through, where they enter certain information about their 
financial situation, and the navigator will help them to do 
that, but the navigator is not going to be giving them tax 
advice.
    Mr. Lankford. Can I ask just a quick question, as well, on 
the background? Would you assume that the individuals that are 
navigators that have access to Social Security numbers, private 
health care information as far as their insurance companies and 
such, they would have the same standards as census workers, for 
instance, that are doing a headcount in the house? They are 
going to walk away with an awful lot of private information 
when they walk away from this door, so would they have the same 
standards as a census worker?
    Mr. Cohen. So I would make two points. First of all, they 
won't walk away with any private information. The private 
information will be entered through the application process, 
but the navigators are specifically going to be trained and 
directed not to retain any private information.
    Mr. Lankford. So is there any way to verify that? I get 
that is the desire, but there has to be a verification that 
they are not walking away with a pretty big database of that 
community.
    Mr. Cohen. Sure. And we will be doing an oversight process 
and it is punishable by a fine of up to $25,000 if you steal 
somebody's personal information, so it is a pretty significant 
thing. But the other thing I would say, Congressman, is I think 
that these folks are going to be comparable to what we have 
seen for many, many years in the State Medicare programs, where 
they have had people who have assisted in getting folks 
enrolled. It has been extremely successful in the CHIP program, 
where they have had people who have helped getting people 
enrolled, and I am not aware of any problems that have occurred 
in those programs in terms of the kind of thing that you are 
mentioning, so I don't expect we will see them here.
    Mr. Lankford. Well, I am going to yield back, but I can say 
in my State there is already some questions about licensing and 
brokers, errors and omissions insurance, and all those things 
that we assume are going to be a part of this that are in our 
State law that now we feel like we are getting some push-back 
on to say, no, you will have your group and we will have our 
group, and though they are handling insurance they really are 
not handling insurance. So there will be some questions and we 
have to figure out the process on that. The letter that we sent 
to you a while back, some of those details will actually help 
us to be able to get some of the information as well.
    I yield back.
    Mr. Jordan. I thank the gentleman.
    The gentlelady from the District of Columbia is recognized.
    Ms. Norton. Thank you, Mr. Chairman.
    I would like, Mr. Cohen, to see if we can put what you are 
doing in some context. One would think this is an unprecedented 
program, but you just mentioned some of the programs that 
required outreach in the past. Many of us are familiar, of 
course, with the Children's Health Insurance Program, Medicare 
Part C and Part D. Were these in any way models for Navigator? 
Is there something different between the outreach that was used 
for Medicare C and D or S-CHIP and what you are doing now?
    Mr. Cohen. I think we definitely tried to learn lessons 
from those previous programs and, as you know, since TRIPA was 
enacted, for example, CMS has given out grants to over 100 
grantees, including schools, community organizations, provider 
groups, faith-based organizations, tribal entities, and so 
forth, to help kids get enrolled in that program. The same 
thing is true of the State programs to help people get enrolled 
in Medicare. And we looked at all those different programs. I 
actually think that what we are doing with the Navigator is at 
least as rigorous, or more, of an application process and a 
review process has been true in those programs.
    Ms. Norton. Well, out of those programs, since these 
programs go back some years, have there been a set of best 
practices that have informed how you have created the Navigator 
Program?
    Mr. Cohen. Exactly. That is right. And we know that 
community-based application assistance itself is a best 
practice when it comes to helping people to get enrolled in 
programs such as Medicaid and in CHIP and in Medicare. Person-
to-person assistance delivered by trusted individuals is really 
the best way. So this is not a bunch of people from Washington 
flying in to tell people this is what you ought to do; this is 
people in the community who have a history in the community, 
are trusted in the community, who are going to be providing 
this assistance.
    Ms. Norton. But apparently there are two entities who are 
navigators in each marketplace, one is consumer-based off a 
nonprofit. Would you tell us about this two-layered approach? 
What is the difference between the navigators?
    Mr. Cohen. I think that what the statute contemplates is 
that at least one of the two navigators that is required to be 
in each State be a nonprofit consumer group and then the other 
can be something else.
    Ms. Norton. For example?
    Mr. Cohen. It could be a hospital; it could be a labor 
union; it could be a Native American tribe. There are a variety 
of different types of organizations that serve the community 
that would qualify.
    Ms. Norton. So the two-layered approach is necessary for 
what reason?
    Mr. Cohen. I think it is just to ensure that we have a 
variety of different types of organizations. Of course, anyone 
serving as a navigator may not have any sort of conflict of 
interest or financial benefit from the insurance industry, so 
that applies across the board. But I think the idea was to make 
sure that there would be at least one group that had a history 
of serving consumers in that community.
    Ms. Norton. Well, that, I applaud you for. Instead of using 
only, pardon the pejorative, bureaucrats, you are also using 
people from the community, training them and sending them into 
the community with the right kind of best practices background.
    Thank you very much, and I yield back.
    Mr. Jordan. I thank the gentlelady.
    Now recognize the gentleman from Florida, Mr. DeSantis.
    Mr. DeSantis. Thank you, Mr. Chairman.
    Thank you, Mr. Cohen. Just to go back to the gentleman from 
Oklahoma, when he asked you about statutory authority for the 
assisters, was your answer that, yes, there is statutory 
authority or no, there is not explicit statutory authority?
    Mr. Cohen. There is statutory authority because the statute 
requires that exchanges provide outreach education and 
enrollment assistance to consumers. That is the statutory 
authority. That is the function that has to be performed by the 
exchanges.
    Mr. DeSantis. So when the HHS folks briefed the committee 
staff and they said there was not statutory authority, they 
were incorrect?
    Mr. Cohen. Well, I wasn't there, so I can't speak to what 
they said or didn't say, or what folks heard or didn't hear. 
But I'm telling you_
    Mr. DeSantis. Well, if they said that, I am asking you if 
they said that, they would have just been mistaken and not 
understood the law, correct?
    Mr. Cohen. We have statutory authority for the In-Person 
Assister Program, yes.
    Mr. DeSantis. Okay, now, in terms of the goal, as I read 
the statute, that these navigators are supposed to provide 
fair, impartial, and accurate information about this program, 
correct?
    Mr. Cohen. Yes.
    Mr. DeSantis. And so, for example, California, they are now 
trying to develop a system where they are paying these 
navigators per enrollment, and they say the reason for that is 
they want to incentivize enrollment. But if there is a conflict 
between incentivizing enrollment and providing fair and 
accurate information, the navigator would have to provide fair 
information, even if it may lead somebody to not enroll, 
correct?
    Mr. Cohen. They have to provide fair and accurate and 
impartial information, yes, regardless of what the decision is.
    Mr. DeSantis. Right. So, for example, the way the law is 
structured, you have this tax or mandate that applies to folks 
who do not get insurance, but then you also have a must-issue 
provision so that if people do develop a condition, they still 
will get insurance issued to them. And I think the cost for an 
individual is about $95 in 2014 for those who choose not to get 
insurance.
    So my question for you is will navigators be required to 
inform applicants that their failure to purchase insurance will 
lead, in some instances, to a penalty that is actually cheaper 
than the cost out of pocket to them to maintain insurance?
    Mr. Cohen. Navigators would be required to provide 
accurate, fair, impartial, and truthful information with 
respect to all aspects of this, including the potential 
penalties.
    Mr. DeSantis. So they would have a duty to affirmatively 
provide this information.
    Mr. Cohen. Well, ordinarily, people that navigators will be 
dealing with are going to be people who want health insurance 
coverage; that is why they are going to find their way to a 
navigator. So I don't know that they are going to say to every 
person who comes in the door, well, if you don't get health 
insurance, you might have to pay a penalty of $95. But if they 
are asked a question, they will give a truthful, accurate 
answer to the question.
    Mr. DeSantis. Well, in California they are doing this to 
try to incentivize it, so they must feel that there will be 
some folks that they are trying to reach who are not going to 
be actively seeking it. So will navigators be required to tell 
individuals that they can wait until they develop a condition 
or get sick to purchase insurance without facing a financial 
penalty?
    Mr. Cohen. Well, that would be inaccurate because the 
people will only be able to sign up for insurance during an 
open enrollment period, just as is true of the market today.
    Mr. DeSantis. Well, how does that work? So if I have a job 
and I have insurance, and I have a preexisting condition and I 
lose my insurance or I find myself developing a condition 
through no fault of my own, I would actually have to wait? I 
thought this law provided for coverage for preexisting 
conditions? That was one of the main things that I heard. So 
there may be people, through no fault of their own, who are 
having to wait until an enrollment period, which could be six, 
eight, ten months.
    Mr. Cohen. Well, I think you have confused a couple 
different things. There are circumstances in which what is 
called a special enrollment period. This is the same as in the 
market today, nothing different. If you lose your job, for 
example, and you lose your coverage through your employer, then 
you would have an opportunity to get enrolled and coverage on 
an individual basis.
    But normally, without some event happening that allows you 
to have a special enrollment period, the open enrollment period 
for the first year will run from October through March, and 
then there will be an open enrollment period in subsequent 
years, just as there is today. And you are right that when you 
go to enroll in coverage, the law says that insurers may not 
decline to give you coverage because you have a preexisting 
condition, but that doesn't mean that you can wait until you 
get sick and then sign up. You are taking a risk if you don't 
sign up during an open enrollment period that you may get sick 
and may not be able to sign up until the next open enrollment 
period.
    Mr. DeSantis. Or if you don't qualify for one of the 
special enrollment, even if you are not trying to game the 
system.
    Mr. Cohen. That is true.
    Mr. DeSantis. You would be in a tough situation there. 
Okay, well, thank you, Mr. Cohen.
    I yield back the balance of my time.
    Mr. Jordan. I thank the gentleman.
    I now recognize the ranking member, Mr. Cartwright.
    Mr. Cartwright. Thank you, Mr. Chairman.
    And thank you, Mr. Cohen, for coming here today and sharing 
your thoughts with us. I think by now everybody understands the 
way insurance works. The more people who are in the pool, the 
more diversified the pool, the lower the costs are for 
everybody. And the same basic principle applies to health 
insurance; the more people who are enrolled in health 
exchanges, the lower the cost is going to be for health care 
for everybody. Is that a fair statement, Mr. Cohen?
    Mr. Cohen. It is a fair statement. And I would add one more 
thing. Because, if people show up at an emergency room without 
health coverage, they may get treated anyway, and so there is a 
lot of uncompensated care. So we have an additional problem in 
addition to the one that you have identified. We have an 
additional problem that we are paying for a lot of this 
uncompensated care today that isn't covered by insurance.
    Mr. Cartwright. So the more successful the Navigator 
Program is, the more people are going to be enrolled and the 
lower the cost of health care is going to be for everybody in 
the Nation. Isn't it true that the navigators are going to help 
assist people who might otherwise not know about how to enroll 
in the health exchanges?
    Mr. Cohen. Exactly right.
    Mr. Cartwright. Now, isn't it also true that more people 
are going to enroll in the health exchanges due to the work of 
the navigators than would otherwise enroll if Congress had not 
created the navigator function, Mr. Cohen?
    Mr. Cohen. That is true. And we know that particularly from 
our experience with Medicare and Medicaid and CHIP that that is 
true.
    Mr. Cartwright. That is they don't know about the program, 
they are just not going to enroll in it.
    Mr. Cohen. Right.
    Mr. Cartwright. And we are talking about people, a majority 
of whom were previously uninsured, is that correct?
    Mr. Cohen. Yes.
    Mr. Cartwright. So these are people that kind of could use 
some guidance on how to sign up for health insurance, right?
    Mr. Cohen. That is right.
    Mr. Cartwright. Now, Mr. Chairman, I think it is pretty 
obvious that what is happening here at this hearing is by going 
after this Navigator Program, the majority is really attacking 
both the new access to health insurance coverage for millions 
of previously uninsured Americans thanks to the Affordable Care 
Act and lower health insurance costs that everybody is going to 
enjoy in this Nation once the health exchanges extend coverage 
to everybody eligible under the law.
    Now, Mr. Cohen, I want to ask you a study by the Kaiser 
Family Foundation estimated that 65 percent of the people 
enrolling through an exchange will have been previously 
uninsured. Is that correct?
    Mr. Cohen. Yes, I am familiar with that.
    Mr. Cartwright. Have you seen that figure?
    Mr. Cohen. I have.
    Mr. Cartwright. And many individuals who are now eligible 
for health insurance are unaware of what a health exchange is 
and how it can benefit them. For these individuals, how 
important is it that we do outreach and education activities?
    Mr. Cohen. I think it is extremely important, and I think 
it is important that we do it in a variety of different ways 
that reflect the great diversity of this Country and the 
different kinds of people who live in it, and that we make sure 
we target as carefully as possible so that we reach as many as 
possible.
    Mr. Cartwright. Now, is it safe to say that many of these 
previously uninsured individuals who will now have access to 
health care coverage are unfamiliar with the terms and options 
that they will need to get through when seeking coverage?
    Mr. Cohen. I think that is true.
    Mr. Cartwright. And some of these consumers may have other 
individual limitations which make it particularly difficult for 
them to make informed health plan choices. Would that be 
correct as well?
    Mr. Cohen. Yes.
    Mr. Cartwright. Given these prior barriers to coverage, how 
critical will navigators be in helping Americans gain access to 
the health care benefits available to them?
    Mr. Cohen. Navigators are very critical in particular, as 
you mention, in helping people who do have barriers such as 
disabilities, limited English language proficiency, and other 
obstacles.
    Mr. Cartwright. Now, Mr. Cohen, in your testimony you 
stated that ensuring that consumers and businesses participate 
in the marketplaces requires that they learn about the benefits 
that these marketplaces have to offer and that they get the 
help they need in order to take advantage of the benefits. How 
are the navigators going to assist small businesses 
participating in health insurance exchanges and what kind of 
help is available to small businesses participating in the 
health insurance exchanges?
    Mr. Cohen. Small businesses are eligible if they have 25 or 
fewer employees and they are otherwise eligible for a small 
business tax credit, and navigators will be able to help small 
business owners understand their eligibility for the tax credit 
and also help them in selecting a plan that is good for their 
employees and for their business.
    Mr. Cartwright. Well, thank you, Mr. Cohen, for helping 
explain how the navigators assist making our new health care 
law work, and I yield back, Mr. Chairman.
    Mr. Jordan. I thank the gentleman.
    I now recognize the vice chair, Mr. Gosar.
    Mr. Gosar. Thank you, Mr. Cohen.
    Thank you, Mr. Chairman.
    I am confused. I am very confused from what I have been 
hearing from my colleague from Florida and the gentleman just 
before me. I want you to describe this navigator, so I am going 
to ask you a number of questions. Yes or no would be a great 
answer.
    So you would require a high school diploma, yes or no?
    Mr. Cohen. It is really not a question I can answer yes or 
no.
    Mr. Gosar. That makes my point. This is getting 
complicated. So let me ask you, they have to have insurance 
knowledge, yes or no?
    Mr. Cohen. The grantee recipient has to demonstrate, as 
part of the process for applying, insurance knowledge and also 
it has to maintain that knowledge through the course of 
informing.
    Mr. Gosar. I am glad you did that. So what is the checks 
and balances in that educational process? Is somebody coming 
and visiting with that navigator or is it done online?
    Mr. Cohen. In terms of the course that they are taking?
    Mr. Gosar. Absolutely.
    Mr. Cohen. The course that they are taking is going to be 
an online course, just as it is for agents and brokers in many 
States today.
    Mr. Gosar. And there is no other checks and balance?
    Mr. Cohen. No. So there is a very rigorous grant oversight 
process that we follow that is the same type of process that we 
follow in all of the grants that CMS administers and HHS 
administers. There will be quarterly and annually reports, 
there will be financial review, and there can be site visits as 
well.
    Mr. Gosar. I understand. I have a limited amount of time.
    The gentleman that you had a conversation with that there 
are special needs so that you are going to have to be very 
aware of special needs. That does not describe to me somebody 
that has a very simple objective or a basic education, does it 
not? Oh, by the way, I have been doing this for 25 years; I am 
a dentist. So I have dealt with insurance. It is not an easy 
issue and it is not what 20 and 30 hours can actually oversee.
    When you are talking about special needs people, it takes 
an awful lot of compassion and actually have walked in their 
moccasins, as we say in Arizona, a long time to understand how 
that application means. So when you look at 20 to 30 hours, 
that is inadequate, absolutely inadequate.
    Let me ask you the next question. How can you guarantee for 
me that a convicted felon wouldn't utilize this information and 
be actually able to participate as a navigator?
    Mr. Cohen. I don't see that, really. If you look at the 
process of what organizations and people are going to have to 
go through to get these grants, and you look at the history 
that we have had of doing similar types of programs in Medicare 
and Medicaid and CHIP, where I am not aware of any of those 
kinds of problems, so we can speculate----
    Mr. Gosar. No, no, no, no, no. I am glad you brought that 
up. So there is no fraud and deceit within some of these 
programs like Medicaid? In fact, I want you to go back to what 
we have seen here over the last year with deceitful actions in 
regards to applications of processes in Medicaid and Medicare. 
So let's not go there.
    Mr. Cohen. But that is not what I said. What I said is I am 
not aware, and would be happy to hear, about problems with 
application assisters helping people and committing some kind 
of fraud.
    Mr. Gosar. Well, I guess what I am getting at, this isn't a 
simple process, and what you are belaboring here is that this 
is a simple process and that this person can be pretty much 
anybody looking at both health care, as well as insurance. And 
then the second part is we are only going to be dealing with, 
for the most part, people like my colleague from Florida said, 
actually looking for health care. Wouldn't it be behooving 
people to sign up because we want a bigger pool, like the 
gentleman that just spoke prior to me in regards said, the 
bigger the pool, the better insurance rates? So you are going 
to be engaging people who you are engaging on door-to-door 
knocking, could it be not?
    Mr. Cohen. Outreach and letting people know about the 
benefits of getting health insurance coverage can provide for 
them is part of the function of a navigator, yes.
    Mr. Gosar. So we are going to come back to this. So we do 
have some minimum requirements for this navigator or assister, 
do we not?
    Mr. Cohen. Yes.
    Mr. Gosar. And what are those?
    Mr. Cohen. Well, in order to get a grant, they have to 
demonstrate a track record of work in the community, expertise 
of the personnel who are going to be doing the work, and a plan 
for how they are going to perform the work and a budget.
    Mr. Gosar. And I want to go back to that working in the 
community. You said that there is no worry about this 
information. Well, when you give somebody your Social Security 
number and give tax records, which they will be able to access, 
right?
    Mr. Cohen. The navigator will not be receiving people's 
information; the information will be submitted through an 
application that the navigator can assist with, but the 
navigator is not collecting this information. And again I would 
point out application assisters in Medicaid and Medicare and 
CHIP do the same thing, and Social Security numbers are 
required in those programs as well.
    Mr. Gosar. Thank you. I am out of time.
    Mr. Jordan. I thank the gentleman.
    Now recognize the gentlelady from New Mexico, Ms. Lujan 
Grisham.
    Ms. Lujan Grisham. Thank you, Mr. Chairman.
    And thank you for being here today, Mr. Cohen. I want to do 
maybe a couple of things in reaffirming there are many public 
programs where we have not only required, but, because we 
didn't require it up front, had limited enrollment and 
misinformation about a variety of health care programs from 
veterans' benefits to Medicare to senior citizens programs and 
Medicaid. So I will get back to that in a second.
    And I appreciate that, that we want navigators or assisters 
to be accountable and effective so that people get the best 
information, but I am stymied that so far in this hearing we 
are more concerned about background checks and those 
qualifications for people who would be navigators and outreach 
specialists, than we are for people who would, today, buy a 
firearm. And I want to point out that we have incredible 
success with outreach and health care benefits programs. For 
example, when we did Medicare Part D, in spite of the fact that 
we had a national hotline and a variety of nationally-based 
information programs, most States had to provide additional 
supportive information because it was too hard to make the 
decisions about the independent prescription drug insurance 
benefits that were available.
    For at least 20 years, that I am aware of, States have 
operated in their aging programs health insurance and benefits 
assistance corps. Most States don't require fingerprinting or 
background checks, they don't require that folks have to have a 
high school education, maybe a GED; but that they work on is 
have those folks gone through a rigorous training program, do 
they understand the benefits and the complexities between the 
health care delivery system, private insurance, and the social 
programs or social insurance programs like veterans' Medicare 
and Medicaid, so that you can help someone navigate those 
complexities.
    And I would also submit that the high back program was one 
of the most effective programs at identifying fraud and waste, 
which created then the Operation Restore Trust Program. I am 
going to highlight also, and I am going to ask if you are 
familiar with those, that this program was a very successful 
program for both veterans, Medicaid recipients, and Medicare 
Part D enrollees.
    So we will start there. Are you familiar with the high-back 
program and related programs by States?
    Mr. Cohen. I am actually not. I am familiar with State 
health insurance and assistance programs and a number of States 
that have provided in-person assistance for people to help them 
get enrolled in Medicare and Part D.
    Ms. Lujan Grisham. Are you aware that in many States, 
including New Mexico, we have looked at, for the high-risk 
pools, because, again, it is also, even though it is a very 
finite eligibility context for those programs, both State high-
risk pools and Federal high-risk pools, the States have 
incentivized agents and brokers to understand the difference 
between the Federal pool, the State pool, Medicaid, Medicare, 
Medigap. Because what you want, people who have Medicaid have 
far better coverage than people in a traditional insurance plan 
through the pools.
    Mr. Cohen. Yes.
    Ms. Lujan Grisham. And are you aware of the significant 
fraud or privacy protection problems for any of those States, 
including New Mexico, my home State, who are engaged in those 
operations?
    Mr. Cohen. I am not.
    Ms. Lujan Grisham. My last context here for questioning, 
and I agree with the statements that have been made before, 
that if you don't do this outreach, people don't know. People 
on Medicare cannot describe to you their benefits. People on 
private insurance cannot adequately describe their co-pays, 
their benefits, their authorizations, their referrals. They 
have difficulty navigating for their own taxes today what was 
their health care costs or tax deductibles that are out-of-
pocket versus those that are not. It is complicated. We all 
understand that.
    Are you engaging in specific efforts for a State like New 
Mexico--and I realize I am leaving you very little time--to use 
navigators in places like the Navajo Nation, with 21, if you 
don't count the Navajo Nation, independent, with independent 
languages, tribes, a large Asian-American and Hispanic 
community? What are we doing to make navigators successful in 
that context?
    Mr. Cohen. Thank you. As you know, we have an obligation 
under the Affordable Care Act to do tribal consultation, which 
we do on a regular basis, and we are working very closely with 
the tribes to make sure that Native Americans are aware of the 
benefits of the Affordable Care Act and some benefits of the 
Affordable Care Act that are particular to Indians that are 
even better than are true for the rest of the population. We 
very much encourage tribes to apply to be navigators because we 
think that would be one very effective way that they can reach 
their community. So that is an area that we definitely have put 
some very particular focus on.
    Ms. Lujan Grisham. I have a few seconds left, Mr. Chairman, 
before I yield back. I would point out that--maybe I am doing 
the opposite clock now, I just saw that. But if I might just 
finish that, Mr. Chairman.
    Mr. Jordan. You are fine.
    Ms. Lujan Grisham. I might argue with you that the benefits 
under the Affordable Care Act are not more robust for a Native 
American community, but notwithstanding the fact that they are 
sorely under-insured in an Indian health service, and 
notwithstanding frontier and rural access, it is a huge 
problem; and for my State, where we have a more than 21 percent 
under-insured, with one of the poorest and sickest populations 
in the Country, we are going to need navigators and assisters 
and outreach and education efforts to facilitate, which is 
required under the Act, to facilitate enrollment to the highest 
degree.
    Thank you. No further questions. I yield back.
    Mr. Cohen. And I was just referring, really, to the 
provisions on cost-sharing, which are a little bit different 
for Indians.
    Ms. Lujan Grisham. Fair enough.
    Mr. Jordan. I thank the gentlelady.
    Mr. Cohen, Senator Baucus has said implementation of the 
Affordable Care Act is a huge train wreck. Is he right? And let 
me just say this. He wrote the bill; he has a distinguished 
career in the Senate. He was intricately involved in writing 
the bill over there. He is a guy who comes with some expertise, 
a number of years serving in Congress. So when he says 
something, it means something. Is he accurate?
    Mr. Cohen. I don't agree with Senator Baucus' statement. I 
think we are very much on schedule; we are moving forward. We 
are going to be ready October 1st for open enrollment to begin.
    Mr. Jordan. So Senator Baucus is wrong?
    Mr. Cohen. Well, I am not sure exactly what he is referring 
to or what he meant.
    Mr. Jordan. He said implementation of the Affordable Care 
Act is a huge train wreck. He didn't say it is complicated; he 
didn't say what you said in your opening statement. You said 
this is a significant undertaking. He could have used that kind 
of language. He didn't choose to use that language, he said it 
is a huge train wreck. So I am asking is he accurate in his 
assessment of what is coming to the American people.
    Mr. Cohen. I disagree with Senator Baucus' statement.
    Mr. Jordan. So the guy who helped write the bill in the 
Senate is wrong. You are saying maybe he is 71 years old, he is 
losing it, he doesn't have it anymore? What are you saying?
    Mr. Cohen. I disagree with Senator Baucus' statement. We 
are doing very well; we are moving forward. We just recently 
completed receiving submissions----
    Mr. Jordan. Do you think you can do it? Do you think you 
can get ready?
    Mr. Cohen. Yes. We will be ready.
    Mr. Jordan. Here is my understanding. You don't start 
training these navigators. They get these navigators, 
assisters, and the confusion that exists around this. What I do 
know is the money goes out like August 15th, is that right, 
this year?
    Mr. Cohen. Yes.
    Mr. Jordan. And then, a few weeks later, they are supposed 
to be out there signing people up. I mean, normally, when you 
have a new product, you don't need people out there telling 
folks they have to do it; people find out, well, if it is a 
good product, I will sign up on my own. So August 15th this all 
starts, and then the enrollment runs through what, October 1st 
through March, is that right?
    Mr. Cohen. Correct.
    Mr. Jordan. And you think you can get it all up and running 
in that time, even though the guy who helped write the bill, 
who was intricately involved, has a distinguished career in the 
Senate, calls it a huge train wreck?
    Mr. Cohen. It will be up and running, and it will be ready. 
And I would like to point out navigators are not the only way 
that people are going to learn about this law and are going to 
get help.
    Mr. Jordan. They are learning now. I talk to business guys. 
They are learning now, trust me. We know what is coming. Go 
ahead, I am sorry. I just talked to a bunch of business guys 
yesterday.
    Mr. Cohen. Agents and brokers are going to be out there 
helping people get enrolled; the insurance industry itself, 
obviously, has a tremendous interest in getting people 
enrolled.
    Mr. Jordan. Let me ask another question, another thing that 
is on people's minds. The American people have heard what 
Senator Baucus called the implementation of this bill. I think 
they understand what train wreck means versus a significant 
undertaking. But let me ask you this, because in my opening 
statement I referenced the situation with the Internal Revenue 
Service, and Ms. Norton said that that was a stretch to tie 
that in, but I just want to know, isn't it true that the 
Internal Revenue Service is intricately involved with 
implementing and enforcing the Affordable Care Act?
    Mr. Cohen. The Internal Revenue Service has a significant 
role in overseeing tax provisions insofar as they are 
implicated in the Affordable Care Act, not everything about the 
Affordable Care Act.
    Mr. Jordan. You just answered Mr. Cartwright's question 
that one of the things these navigators are going to be out 
doing is, when they talk with small businesses, they are going 
to be giving them tax advice. So there is that component as 
well. So the IRS is involved, significantly, you said, correct?
    Mr. Cohen. The IRS is involved, yes.
    Mr. Jordan. And I just want to know since they are involved 
and since you are intricately involved in all this, does it 
trouble you what is going on with the Internal Revenue Service, 
this scandal that has been uncovered? Does that trouble you as 
an American, that someone who is involved in putting together 
the implementation of the Affordable Care Act?
    Mr. Cohen. You know, it is not my job to oversee what the 
IRS does. I don't see a connection between what I have read in 
the newspaper and what we are doing.
    Mr. Jordan. Has HHS transferred any Federal tax dollars to 
the Internal Revenue Service for the significant portion that 
they are involved with in enforcing Obamacare? And, if so, how 
much money?
    Mr. Cohen. I don't believe HHS has transferred money to the 
IRS. I don't know the answer, frankly.
    Mr. Jordan. My understanding is it is hundreds of millions 
of dollars that have moved to the Internal Revenue Service for 
the enforcement of this.
    Mr. Cohen. Well, the Internal Revenue Service certainly has 
gotten funding for its part of implementing its role in 
connection with the Affordable Care Act. Whether that money 
came from Health and Human Services, I don't know the answer to 
that.
    Mr. Jordan. And as someone who is so involved in this 
issue, do you find it troubling at all that the agency who has 
a significant role in enforcing the Affordable Care Act was 
systematically targeting groups who came into existence because 
they initially opposed the Affordable Care Act? And the date 
that the targeting started, according to the inspector 
general's report, the date that the targeting started was the 
very month that the Affordable Care Act passed, March of 2010. 
Do you find that at all troubling, as an American citizen? 
First Amendment rights were obviously violated in this thing. 
Do you find that as cause for concern?
    Mr. Cohen. Congressman, I would be happy to have a beer 
with you and talk about what I think as an American citizen, 
but, sitting here right now, I don't have a position on what I 
have read in the newspapers about the IRS. I don't see a 
connection between what I have read in the newspapers and what 
we are doing.
    Mr. Jordan. You don't see a connection at all?
    Mr. Cohen. I don't.
    Mr. Jordan. And you don't think we need to delay the 
implementation of this, even though the guy in the Senate who 
was so involved in putting it together, has said it is a huge 
train wreck? You don't think we need to delay, a suspension, a 
hold?
    Mr. Cohen. Absolutely not.
    Mr. Jordan. Okay.
    Mr. Cartwright. Mr. Chairman, would you yield for a point 
of information?
    Mr. Jordan. I would be happy to yield to the ranking 
member.
    Mr. Cartwright. I would just like to point out that what 
Senator Baucus said was if the Obamacare is not implemented 
properly, it will be a train wreck.
    Mr. Cohen, when the chairman asked you that question, did 
he put the question in that context?
    Mr. Cohen. It was a little different.
    Mr. Cartwright. And, overall, would you agree, if we don't 
have things like the Navigator Program, that would lead to 
improper implementation of Obamacare?
    Mr. Cohen. You know, I am sure that many people recall that 
when Medicare Part D went into effect, there were problems in 
the beginning, there were some significant problems in the 
beginning; and I think that was a previous administration to 
this one. And today millions of Americans rely on the benefits 
that they get from that program.
    So I think we ought to look at this like any other big 
undertaking. Will it be perfect on day one? It may not be 
perfect on day one. We are working day and night to make it as 
good as it can be. We are going to be successful. We are going 
to be ready on October 1st and millions of Americans will 
benefit from the work that we are doing.
    Mr. Cartwright. Thank you, Mr. Chairman. I yield back.
    Mr. Jordan. I appreciate that. I just want to, again, for 
the record, though, the senator used the term train wreck, he 
didn't use that this was a big concern, this was going to have 
some problems, this was going to take some time. He said train 
wreck. And that was why I had the line of questioning I did.
    With that, would yield to the gentlelady from Illinois, Ms. 
Duckworth.
    Ms. Duckworth. Thank you, Mr. Chairman.
    Mr. Cohen, how are you this morning?
    Mr. Cohen. Good. Thank you.
    Ms. Duckworth. Great. Health insurance availability and 
costs are a huge concern for small businesses, and in my 
district I have a large percentage of small businesses. One of 
the things that small businesses face is that they have less 
bargaining power than large companies and they generally pay 
higher prices for insurance, if they can afford it at all.
    I was very disappointed when, earlier this year, CMS 
decided to delay the requirements to make more poor health 
plans available for small business workers in the Small 
Business Health Option Program, the SHOP Program. I have heard 
a lot of anxiety from small businesses in my district about how 
the health care law will affect them. This provision has real 
promise, when it gets implemented, to improving the status quo 
for small businesses, since most of them are only currently 
able to offer their employees access to a single health plan 
that the employer themselves select.
    Could you comment on the reason for this delay and how do 
you expect the delay to effect the attractiveness of the 
exchanges?
    Mr. Cohen. Thank you. We are committed to providing 
employee choice through the SHOP. We are mindful of the 
significant undertaking we have ahead of us, and this really 
was a strictly operational decision that we had to make in 
terms of what we are able to accomplish for year one, and we 
reached the conclusion that it was the more prudent thing just 
to delay it for a year. We are committed to it, we believe it 
is important, and we will put it into effect, but it was really 
just a matter of the difficulty we had of getting it into place 
in time for this October.
    Ms. Duckworth. Thank you. We have been discussing the 
importance of the Navigator Program and how we need to 
certainly make sure it is implemented in the best way possible 
for optimum results. With regard to the Navigator Program and 
other outreach efforts, can you elaborate on the 
Administration's plans to ensure that the information is 
accessible and usable by people with disabilities?
    Mr. Cohen. Yes. That is one of the factors that will be 
scored in applying for grants under the Navigator Funding 
Opportunity Announcement, is both a track record and a plan to 
reach more difficult-to-reach, more vulnerable communities, in 
particular the disabled. And then through the application 
review process and the grant decisions we will definitely be 
looking to provide grants to organizations that can fill that 
need.
    Ms. Duckworth. Thank you. You know, one of my highest 
priorities is to ensure that my constituents have access to 
affordable, quality health care. It is what my constituents 
have told me over and over again that they want. I am 
concerned, however, by reports that say that the majority of 
Americans who are eligible for assistance to help them afford 
health care are still unaware of how they can benefit from the 
law. It seems to me that with the October 1st enrollment date 
quickly approaching, you have a big communications problem on 
your hand, and you alluded to that.
    Could you speak a little bit on the Administration's 
readiness to reach out to this huge number of people so that 
they can enroll in time? Basically, you say that you are going 
to be ready to go on October 1st, and you need to be. If not, 
what do you need in order to get ready and have a successful 
rollout of these provisions?
    Mr. Cohen. So we have a plan in place that basically is 
timed so that people are getting the information close to the 
time in which there is something that they can do with it. So 
right now we are in what we call the education phase, which 
began in January and proceeds through June, where we are just 
putting out information. We are in the process of re-purposing 
the HealthCare.gov site to be really a consumer information 
site. Our call center will be going live in June, where people 
will be able to call and get information that way. And then 
starting in the summer we will begin what we call the 
anticipation, or get ready phase. And I am not an expert in 
these things, but what I understand is that if you start too 
early and then people say, well, what do I do, and then there 
is nothing that they can do because it is too soon, then you 
may end up having people who get a little bit kind of 
frustrated or disappointed.
    So we really are gearing towards making sure the people get 
the information they need in time for October, when they 
actually can take action and begin to get enrollment coverage.
    Ms. Duckworth. Thank you, Mr. Cohen.
    I yield back my time, Mr. Chairman.
    Mr. Gosar. [Presiding.] I thank the gentlelady.
    I will yield to the gentleman from Tennessee, Mr. Duncan.
    Mr. Duncan. Thank you, Mr. Chairman.
    Medicare ended up costing 12 times more than what was 
predicted after its first 25 years of operation. The cost of 
Medicaid exploded even more than that, as Chairman Jordan 
mentioned in his opening statement. The estimated cost for 
Obamacare, now the un-Affordable Care Act, are now double or 
triple what was originally estimated. All other Federal medical 
programs have gone far beyond what was originally predicted 
with the low-ball front end estimates. And, of course, Speaker 
Pelosi was famously quoted as saying we would have to pass 
Obamacare before we could find out what was in it. But the more 
we find out, the more complicated, confusing, and convoluted it 
becomes. And we are told we have to hire 16,500 more agents for 
the Internal Revenue Service to enforce the law, and possibly 
thousands of navigators and assisters.
    But I want to go in a little different direction, and that 
is the solicitation of the contributions by the Secretary. The 
Washington Post story on this says, but the industry official 
who had knowledge of the cause, but did not participate 
directly in them, said there was a clear insinuation by the 
Administration that the insurers should give financially to the 
nonprofits. Meredith McGehee, policy director for the 
nonpartisan Campaign Legal Center, which researches government 
ethics issues, said she was troubled by Sebelius' activities 
because the Secretary seemed to be ``using the power of 
government to compel giving or insinuate that giving is going 
to be looked at favorably by the government.''
    The New York Times story said, but several executives said 
they were uncomfortable with the discussions because the 
Federal Government has the power to approve or reject the 
health plans they want to sell in insurance markets that will 
be run by Federal officials in more than 30 States. Health care 
executives said they were reluctant to make big contributions 
for several reasons, including the fact that insurers are 
required to pay more than $100 billion in new taxes over the 
next 10 years to help defray the cost of expanded coverage. 
Direct companies must pay new fees totaling $34 billion over 
the same period.
    As you can see, my main concern, Mr. Cohen, are the costs. 
But do you know did the Secretary request a legal opinion about 
the propriety of soliciting donations?
    Mr. Cohen. I can't speak to the specifics of what the 
Secretary, any conversations she had or what she did because I 
don't know. It sounds like the person quoted in the story 
doesn't know either, because they say they weren't on the 
phone, but they just heard about it from somebody else.
    What I can tell you, though, is that during Medicare Part 
D, which was put into place by a previous administration, the 
Department worked with a wide array of groups, including AARP, 
PhRMA, the National Alliance for Hispanic Health, the National 
Association of Area Agencies on Aging to do outreach and to 
help people get enrolled in coverage in Medicare Part D. That 
is what they did with Medicare Part D. It is called a public-
private partnership, and it can be a very effective way of 
reaching out into the community and helping people learn about 
a program and what it can benefit for them. That particular 
partnership, which was called La Promesa, operated to do one-
on-one outreach in 17 different States. So that is what they 
did with Medicare Part D.
    Mr. Duncan. All right. Let me ask you something else that 
Chairman Jordan mentioned. He mentioned the loss of jobs and 
the fact that many companies are cutting people's hours back so 
they don't go over the 30 hour limit, and once again The 
Washington Post had this, said because of this Cook Medical-
Boston Scientific extractor corporation, Medtronic, Covidien, 
and Zimmer Companies have all cited the medical device tax is 
the reason for building plants in China, Mexico, Ireland, and 
Costa Rica, and for laying off hundreds of U.S. workers, 1,000 
in the case of Stryker. Several of these companies, possibly 
all, have already planned charges against earnings ranging from 
$50 million to $175 million.
    Have you looked into this part of the law?
    Mr. Cohen. I am not familiar with what those companies have 
done or the decisions that they have made, no.
    Mr. Duncan. All right, before my time runs out, how many 
different companies and unions and businesses and governments 
have requested waivers from the law and how many have been 
granted?
    Mr. Cohen. I would have to get you that information; I 
don't know it off the top of my head. The only waiver program 
that we had was a waiver from the annual limits provision to 
allow companies that offered coverage to their employees, to 
keep that coverage until January 1 of 2014. But I couldn't give 
you the number. But it is on our website, I know that.
    Mr. Duncan. Okay, thank you very much. My time is up.
    Mr. Jordan. [Presiding.] I thank the gentleman from 
Tennessee and now recognize the gentleman from Nevada, Mr. 
Horsford.
    Mr. Horsford. Thank you, Mr. Chairman.
    Thank you for being here, Mr. Cohen. I am from Nevada and 
we actually have a governor, who happens to be a Republican, 
who is working to implement this bill, so I am going to focus 
on what we can do and what we can't in my questioning.
    As you know, Nevada has been working hard to set up our 
exchange and to develop training and certification requirements 
for the Navigator Program. We are already in the process of 
training navigators; however, it is my understanding that 
States are still waiting for CMS to finalize its proposed rule 
on standards for navigators and the non-navigator assistance 
personnel.
    Can you give us an idea of when we can expect a final rule 
on that so that the States who are working to implement this 
bill can continue to do so on time and on track?
    Mr. Cohen. I know that we are working through the comments 
that we received to the proposed rule, and while I can't give 
you a specific date, I expect that the final rule will come out 
very soon.
    Mr. Horsford. Also, my particular district in Nevada is 
sparse, it represents both rural and urban interests, and it 
takes over six hours to drive from one corner of my district to 
the other, so one of my concerns is the implementation in 
ensuring that all constituents are able to access information, 
even the struggle that we have around online. I have 
communities that literally have very little broadband 
connectivity. So what is being done to ensure that ACA 
implementation information is being disseminated to rural 
communities in particular?
    Mr. Cohen. I think it is a really good question, and 
obviously there are parts of the Country where broadband access 
is an issue and where it is not going to be practical for 
someone to come door-to-door, given the distances involved and 
the population density. I think for those people it is probably 
going to have to end up being a paper application, and they 
will probably have to get the help that they need through the 
call center, which will be operational beginning in June, 24 
hours a day, 7 days a week, and will be there to provide people 
with assistance over the phone who don't have access to online 
help.
    Mr. Horsford. And is that an 800 number?
    Mr. Cohen. You know, I actually don't know what their phone 
number is. It is being launched in June and the information 
will be out.
    Mr. Horsford. And what type of personnel will be trained to 
deal with different languages?
    Mr. Cohen. There will be access to translation services, 
and don't hold me to the exact number, but it is going to be a 
large number of languages through a translation service that 
will be available.
    Mr. Horsford. I want to follow up on something my 
colleague, the gentlelady from New Mexico, talked about, the 
fact that health insurance is complicated to begin with, it 
doesn't matter what type of program, if you are a private payer 
or not. But one of the areas that the navigators are supposed 
to respond to is specifically the uninsured individuals who may 
have never been in an insurance program and are unfamiliar with 
coverage options. How will navigators respond to this 
population of uninsured specifically?
    Mr. Cohen. So that is a great question, and part of the 
training and then what the navigators will be doing is to 
provide very basic information on how health insurance works; 
what benefits are, what is covered, what is not covered; what 
deductibles are; what cost-sharing is, co-insurance, co-pays. 
And then, as you know, once you get to the point where you are 
choosing what plan to buy, the Affordable Care Act requires a 
couple things that do make it a little bit easier: one, all 
plans have to have essential health benefits so that there is a 
continuity across plans as far as what is covered; and then, 
secondly, we have these medal levels, so you have the bronze, 
silver, gold, platinum, and the navigator can help walk through 
with the person what are your medical costs typically in a 
year? If you have high medical costs, you might want to pay a 
little bit more in premium, but get less of a deductible. If 
you have not a lot of medical costs in a typical year for your 
family, you might want to go with the bronze plan, which will 
be less expensive, but the deductible will be higher before 
coverage actually kicks in.
    And that is the kind of information the navigators will be 
trained in to be able to help their neighbors in understanding 
this transaction.
    Mr. Horsford. I am out of time. I do have some additional 
questions I would submit for additional responsible. I just 
hope that we will work in this Oversight Committee to figure 
out ways to implement this bill and to help States like Nevada, 
who actually want to do it right. Thank you.
    Mr. Gosar. [Presiding.] I thank the gentleman from Nevada.
    I now yield the floor to the gentleman from Tennessee, Dr. 
DesJarlais.
    Mr. DesJarlais. Thank you, Dr. Gosar.
    Thank you, Mr. Cohen, for being here today. I was listening 
to your conversation a bit earlier with Mr. Cartwright about 
how the more people you get into a health care pool, the 
cheaper it makes it for everyone. Is that your understanding or 
your belief?
    Mr. Cohen. Well, it is the mix as well as the number, 
right? So generally we expect that folks who have a lot of 
health care costs will find their way to us and will get 
enrolled in coverage.
    Mr. DesJarlais. Okay, that is a good point.
    Mr. Cohen. We really want to reach out to the young and the 
healthy folks who may not appreciate the need for health 
insurance, and yet if, unfortunately, something were to happen 
to them and they were to get sick or be in an accident, they 
would need it.
    Mr. DesJarlais. Okay, so people who have preexisting 
conditions or health problems, they have a hard time getting 
insurance now why?
    Mr. Cohen. Because, if they are covered by their employer, 
they are okay; but if they are not covered by their employer 
and they are out in the individual market----
    Mr. DesJarlais. It is very expensive, right?
    Mr. Cohen.--a health insurer may decline to write them at 
all or it will be very expensive.
    Mr. DesJarlais. So the insurance companies cherry-pick in 
order to be profitable; they keep these people out. And what is 
frightening to me is who decides what a preexisting condition 
is. It is really the people who are trying to make the money, 
the insurance companies. We think of preexisting conditions as 
cancer, maybe previous heart disease, but it actually can be 
defined as anything from acne to hemorrhoids. And anyone in 
here either has or is going to have a preexisting condition, so 
it is going to get more expensive. And the whole problem with 
our health care system is that it is too expensive right now 
and it is unaffordable for too many people. So to have this 
discussion that bringing a bunch of people in, especially the 
most expensive people, is going to somehow make it cheaper for 
everyone is just simply false. I have been in health care for 
over 20 years and I can tell you that is not going to be the 
case.
    But there are a couple things I want to talk about. Do you 
think that the statutory authority that you described here to 
create the navigator/assisters is ambiguous or is it pretty 
clear, the statutory authority?
    Mr. Cohen. You know, I am not the lawyer, but we are 
confident and believe that we have the statutory authority to 
do the program that we propose.
    Mr. DesJarlais. Okay, the Health and Human Services created 
the Assisters Program solely through the rule-making process, 
and HHS officials admitted to the committee staff that there is 
no statutory authority for the Assisters Program. Are you 
discounting what HHS said to the committee?
    Mr. Cohen. Well, I wasn't there, so I can't tell you what 
they said or they didn't say. What I am telling you in my 
testimony is that we have authority for that.
    Mr. DesJarlais. So you don't know whether they misled the 
committee or not.
    Mr. Cohen. Well, I am sure that they didn't mean to mislead 
the committee.
    Mr. DesJarlais. Well, they said they didn't have statutory 
authority and you are saying you do, and I am asking you if it 
is clear or ambiguous. Can you answer whether it is clear or 
ambiguous?
    Mr. Cohen. No. I just don't feel comfortable characterizing 
it one way or the other.
    Mr. DesJarlais. So basically, every time we run into a 
hitch, rather than go through Congress, we just circumvent 
Congress and we just make the rules to make it fit, we try to 
put a round peg in a square hole. And that is what has been 
going on with this bill because it was poorly written. We heard 
the other side testify that this is the law of the land. Well, 
sometimes bad laws are written, and this is a case of a bad 
law. And to think that it is going to be ready to implement by 
October is just ridiculous, considering the involvement of the 
IRS, and the fact that we are having to create assisters to be 
funded in a different fashion than what navigators are shows 
that there is a real flaw here, too, as well.
    I wanted to get to one more point. The proposed rule 
requires navigators to recruit, support, and promote a staff 
that is representative of the demographic characteristics of 
communities in their service area. However, HHS has yet to 
reveal how they plan to enforce this provision.
    Okay, so my question is the proposed rule requires 
navigators and assisters staff to be representative of the 
demographic characteristic of communities in their service 
area. What are the specific demographic characteristics that 
HHS is referring to?
    Mr. Cohen. I don't know what we have defined then any more 
specifically than that, but I think the goal is--navigators are 
going to help whoever comes to them, regardless of what their 
demographic characteristics are. But we want the navigators to 
reflect the community in which they will be working. That is 
the purpose.
    Mr. DesJarlais. Okay.
    I have no further questions.
    Mr. Gosar. I thank the gentleman from Tennessee.
    The gentlelady from Illinois is recognized.
    Ms. Kelly. Thank you, Mr. Speaker.
    Thank you, Mr. Cohen, for being here. The majority has 
suggested that the Navigator Program is somehow unprecedented 
and has suggested a parade of horribles that will result from 
community organizations and nonprofits providing consumers with 
information so they can get enrolled in affordable, high-
quality health insurance plans. I wanted to ask you what types 
of organizations can apply for Navigator grants under the 
Funding Opportunity Announcement that CMS has released?
    Mr. Cohen. A broad variety of different types of 
organizations can apply: faith-based organizations, Native 
American tribes, chambers of commerce, community nonprofits.
    Ms. Kelly. So really the whole gamut?
    Mr. Cohen. Really, the whole gamut that reflects the great 
diversity and public activity of America.
    Ms. Kelly. Does the Navigator Funding Opportunity 
Announcement look at the organization's ties to the community 
and history in the community in which it operates as important 
factors in the review criteria?
    Mr. Cohen. It absolutely does, yes.
    Ms. Kelly. And doesn't CMS have prior experience with 
exactly this type of program?
    Mr. Cohen. We do. We have been involved with similar 
programs for Medicare for Part D, for Medicaid, and for CHIP.
    Ms. Kelly. Okay. Because I was going to say isn't it true 
that the community-based application assisters under the State 
Children Health Insurance Program back in the late 1990s.
    Mr. Cohen. Exactly so.
    Ms. Kelly. How successful would you say these organizations 
are in getting children enrolled in the State Children Health 
Insurance Program?
    Mr. Cohen. I think they have been very successful.
    Ms. Kelly. Thank you. It seems like CMS is on sound footing 
and relying on its experience in establishing this grant 
program. We need to do everything we can to ensure that 
consumers are made aware of all their health insurance options 
and that they choose a plan that is right for their family. The 
Navigator Program is an important component, in my opinion, of 
this process. Thank you.
    Mr. Cohen. Thank you.
    Mr. Connolly. Would the gentlelady yield?
    Mr. Gosar. Yes. She yields.
    Mr. Connolly. I thank my colleague.
    Mr. Cohen, is there a confirmed head of CMS? You are the 
deputy administrator and director.
    Mr. Cohen. I believe Ms. Tavenner was confirmed last week 
to be the administrator of CMS, yes.
    Mr. Connolly. And have you been showered with 
appropriations to implement the Affordable Care Act?
    Mr. Cohen. We have not.
    Mr. Connolly. In fact, is it not true that the majority has 
refused to provide your department with any funds for 
implementation?
    Mr. Cohen. Yes. I mean, we have the funds that were 
provided under the bill when it was enacted.
    Mr. Connolly. Originally.
    Mr. Cohen. Originally. But that has been the extent.
    Mr. Connolly. We have a new majority in this Congress.
    Mr. Cohen. Yes.
    Mr. Connolly. And is it not also true that the majority 
here in the House has voted, just last week, for the 37th time, 
to try to repeal, in whole or in part, the Affordable Care Act?
    Mr. Cohen. That is my understanding, yes.
    Mr. Connolly. Well, so you have $54 million left over in 
grants for the Navigator Program to try to implement the 
exchanges, is that correct?
    Mr. Cohen. That is what we have put out in this grant 
application, yes.
    Mr. Connolly. Do you know what the Yiddish word chutzpah 
means, Mr. Cohen?
    Mr. Cohen. I do.
    Mr. Connolly. Might one just observing not want to apply 
that word to the alleged concern being expressed here today by 
some who have made it their lifelong effort to repeal Obamacare 
and to make sure that you don't have a dime to implement it, to 
suddenly show great concern as to whether it will be 
implemented well? Might that fit the Yiddish definition of 
chutzpah, Mr. Cohen?
    Mr. Cohen. I think I will leave that to you, congressman.
    Mr. Connolly. Well, growing up, I was known as the Little 
Rabbi; I worked in a restaurant called The Pumpernickel, so I 
take credit for understanding what chutzpah means. And if it 
means anything, it certainly has application to this hearing. 
It is a bit much to have people lecture you about how well or 
poorly it is going to be implemented who have spent every 
waking hour trying to make sure you can't implement a law that 
they could not defeat fair and square on the floor of the House 
in 2009.
    Mr. Cohen. I will say we can use all the help we can get 
from anyone who is interested in seeing us do the job well.
    Mr. Connolly. Thank you.
    And I thank my colleague for yielding.
    Mr. Gosar. The gentlelady yields back.
    Just to make a comment here, we are comparing apples and 
oranges. When we are talking about CMS and S-CHIP, it is the 
same plan that you are providing across the board. This is not 
the same plan. These will have different deductibles. It is 
much more authoritative and interpretive in regards to those 
benefits. So it isn't the same program.
    I yield to the gentleman from North Carolina, Mr. McHenry.
    Mr. McHenry. Well, thank you. And I certainly would point 
out to my colleague that we did succeed in passing a repeal of 
Obamacare out of the House. The gentleman says in 2009 we lost 
the vote, but we have won multiple--he referenced 37, so we 
have won those 37 votes. It would be great if we had some folks 
on the other side of the Senate comply with that and actually 
do what is reasonable and right, and address these concerns.
    The reason why we are trying to address concerns with you, 
sir, is that we have deep concerns about this program and what 
is happening. My colleague, Mr. Duncan, referenced a press 
report about Secretary Sebelius making multiple phone calls to 
solicit fund-raising from--and you can flip to your notes on 
this, and I would certainly appreciate your answer on it--but 
soliciting funds from health insurance folks, pharmaceutical 
executives, hospitals, to donate large sums to Enroll America 
to fund the implementation of Obamacare, the outreach effort. 
Are you aware of this?
    Mr. Cohen. No, I don't know what the Secretary did or 
didn't do, so I can't comment on it.
    Mr. McHenry. Are you aware that the Secretary made these 
calls?
    Mr. Cohen. No.
    Mr. McHenry. Is this the first time you have heard this 
being brought up?
    Mr. Cohen. I have seen it in the media.
    Mr. Mchenry. Oh. Let me give you an opportunity to restate 
this. Have you heard or read about Secretary Sebelius making 
fund-raising calls for Enroll America?
    Mr. Cohen. I have read some stories about Secretary 
Sebelius and Enroll America, yes.
    Mr. McHenry. Okay.
    Mr. Cohen. But I don't know what she did or didn't know 
because I am not privy to what she did or didn't do, so I can't 
comment on it.
    Mr. McHenry. Okay. I just wanted to make sure we had it 
correct on the record, and you can correct the record that you 
have heard about it, because we certainly have and my 
constituents have. I have gotten a lot of questions about it.
    But are you aware if the Secretary or any HHS staff has 
official legal opinion on the propriety of this, soliciting 
donations?
    Mr. Cohen. I don't know.
    Mr. McHenry. You don't know? Okay.
    So are you going to take specific steps to ensure that 
there is not one favoring of a business that gave to this 
effort or this organization, Enroll America, that that group 
isn't favored over one that said no to the Secretary?
    Mr. Cohen. Well, I am not aware that anyone was asked, 
gave, said yes, said no. I don't know any of those things, so I 
am not in a position to favor anybody or not favor anybody 
because I am not aware that any of that happened. What I can 
tell you, as I mentioned before, is that public-private 
partnerships to help promote a new program, such as was done in 
Medicare Part D, where AARP and PhRMA were involved with CMS in 
efforts to help get information out about a prescription drug 
program that presumably the members of PhRMA stood to gain by, 
that is something that has been done in the past. I think 
public-private partnerships can be a very effective way.
    Mr. McHenry. Have you done any of that?
    Mr. Cohen. I have not.
    Mr. McHenry. You have not undertaken that. Okay. So there 
is legal authority to do that?
    Mr. Cohen. I haven't asked for any legal authority. I 
haven't done it, so I don't know the answer to your question.
    Mr. McHenry. Okay. And you are not aware of any persons or 
individuals who are participating in this effort?
    Mr. Cohen. I am not.
    Mr. McHenry. You are not. Okay. So you don't know how 
closely HHS is working with Enroll America on this advertising 
effort?
    Mr. Cohen. I don't.
    Mr. McHenry. Okay. So you had no input on this Enroll 
America process?
    Mr. Cohen. I have no input with respect to Enroll America 
at all.
    Mr. McHenry. Okay. Okay. Now, this is interesting. In The 
New York Times it said a number of executives felt a bit 
uncomfortable with these calls. And the reason why we ask, Mr. 
Cohen, is because many of us did not ask questions of the IRS, 
and we found disclosures now about what happened in that whole 
process with IRS undertaking targeting of certain political 
groups. So we just want to confirm that that is in fact the 
case, and that is why I ask these series of questions.
    Mr. Cohen. Understood.
    Mr. McHenry. And if you want to correct the record for 
anything, I have 20 additional seconds, if I have not given you 
ample time.
    Mr. Cohen. Nope.
    Mr. McHenry. Okay. Well, I certainly appreciate that, and I 
just call the folks attention. The press reports say the 
Secretary was making these fund-raising calls. We hope that, at 
the end of the day, the groups that said no will not be 
targeted for retribution by either Secretary Sebelius or the 
Health and Human Services Department or the folks that are 
implementing Obamacare. This is a deep concern Americans have 
about their privacy and what their government can do to them if 
they say no or try to act counter to the wishes of those in 
powerful positions.
    With that, I yield back.
    Mr. Gosar. I thank the gentleman for yielding and I 
acknowledge the gentlewoman from California, Ms. Speier.
    Ms. Speier. Thank you, Mr. Chairman.
    Mr. Cohen, it is great to see you.
    Mr. Cohen. It is great to see you too.
    Ms. Speier. Unlike most of the members here on the panel, I 
have worked with you before. I know what a great talent you 
are, how you served California very well in the Department of 
Insurance, so we are very lucky that you are with us. Thank 
you.
    Mr. Cohen. Thank you.
    Ms. Speier. Is it true that the Affordable Care Act passed 
the Congress?
    Mr. Cohen. Yes.
    Ms. Speier. Is it also true that President Obama was re-
elected?
    Mr. Cohen. He was.
    Ms. Speier. So isn't it our obligation to then implement 
that law?
    Mr. Cohen. It is, and we are doing that every single day.
    Ms. Speier. All right. So what keeps you up at night in 
terms of your ability to implement that law?
    Mr. Cohen. We would like to have more funding. That would 
be helpful. And we would like to have less distraction.
    Ms. Speier. All right, let's talk about one of the concerns 
that my Republican colleagues have about the grantees that 
serve as navigators or non-navigator assisters. My 
understanding is, and based on your written testimony, that 
qualified, unbiased, expert contractors will review all 
applications using an evaluation rubric developed by HHS which 
will be scored and statistically ranked. Will you explain that 
process and some of the factors that have gone into that 
consideration?
    Mr. Cohen. I would be happy to. So this is a process that 
we undertake in connection with our Office of Acquisitions and 
Grant Management at CMS; it is a longstanding process, it is 
not new to this particular grant. And they work with us to make 
sure that we put out a Funding Opportunity Announcing that is 
clear and complies with the law, and that people can submit 
applications for. Then they help us, through a contractor, 
select review panels that are people who know about the area 
that we are involved with, who don't work for HHS or CMS, and 
then they score the applications based on very specific 
criteria that are set forth in the announcement that include 
what type of organization it is, its ties to the community, its 
previous accomplishments, the expertise of its personnel, just 
how good an application and budget they have submitted, all 
those things; and they score it on a 1 to 100 scale so we get 
this objective view of the strength of each applicant. And then 
they do a summary for us that basically says here are the 
strengths, here are the weaknesses, as we move forward to make 
the selections.
    Ms. Speier. So this is very similar to the selection 
process used for other grantees in HHS.
    Mr. Cohen. Exactly.
    Ms. Speier. All right. So nothing different, nothing that 
is going to show bias; very objective, correct?
    Mr. Cohen. Correct.
    Ms. Speier. All right, let's go on and talk about training. 
As I understand it, there are some training standards that will 
require up to 30 hours of training in 15 different categories 
of health care topics. Furthermore, as you explained in your 
written statements, navigator grant awardees would have to pass 
an exam prior to beginning to help consumers.
    Based on all of this, I get the impression that the 
training requirements in this actually exceed the training 
requirements that States require for licensing of health 
insurance agents and brokers, is that true?
    Mr. Cohen. I think they are at least as much as what most 
States require. They are more than some States require. In some 
States there isn't any pre-licensing education that is 
required; you have to pass a test, but you don't actually have 
to take a course. So, yes, I think that this training compares 
very favorably to what States require for agents licensing.
    Ms. Speier. And the funding to provide this training you 
have?
    Mr. Cohen. Yes.
    Ms. Speier. All right. Would you tell us a little bit more 
about the program that has been developed in HHS that will 
ensure that we will have skilled individuals who will be 
assisting consumers? Give us some idea of what the training 
components will include.
    Mr. Cohen. So the training components will range from just 
sort of very basic health insurance knowledge and knowledge of 
the health insurance market; to benefits and what is covered by 
health insurance policies, and specifically the essential 
health benefits that are required to be covered by the 
Affordable Care Act; to cost-sharing, deductible, co-insurance, 
co-pay, and how that relates to the premiums that people will 
have to pay and the different medal tiers that plans have under 
the Affordable Care Act. It is also going to require training 
in public programs, because some of the people who come to 
navigators will be eligible for Medicaid or CHIP, and they will 
have to have an understanding of how that works as well based 
on adjusted gross income. And then it will also include 
training in the entire process of helping someone through an 
application through to the shopping experience and choosing a 
plan.
    But it is very important to note that they will not be 
making recommendations, they will not be telling people this is 
the plan I think is best for you; it is purely objective 
information that they will be providing.
    Ms. Speier. Thank you.
    Mr. Gosar. I thank the gentlelady for yielding back.
    Mr. Cohen, can you make those training modules accessible 
to the committee?
    Mr. Cohen. You know, we are working on them right now.
    Mr. Gosar. So they don't exist. So this is theory right 
now.
    Mr. Cohen. We are working on them right now, and we would 
be happy to get them to you.
    Mr. Gosar. And do you have a date in mind? You know, we 
talk about that we are going to be on time here. Can you tell 
me when you expect to have them done and when we can actually 
have them in possession by the committee?
    Mr. Cohen. Well, as was noted earlier, the grants go out in 
August, and that is when the training will begin. So the 
training will be complete and ready prior to that. I can't give 
you a specific date, but we are happy to work with you to get 
you whatever information.
    Mr. Gosar. We would like to have a constant dialogue, so we 
would like to have those modules.
    Mr. Cohen. Absolutely.
    I would like to recognize the gentleman from Michigan, Mr. 
Bentivolio.
    Mr. Bentivolio. Thank you, Mr. Chairman.
    Boy, have I got a lot of questions. Thank you, Mr. Cohen, 
for coming in today and testifying.
    Mr. Cohen. Sure.
    Mr. Bentivolio. You had talked earlier, and I am a bit 
confused. Maybe you can straighten me out here. You said that 
the assisters don't obtain confidential privacy information 
from those who are applying, correct?
    Mr. Cohen. They don't retain any. The information is put by 
the person who is filling out the application, either on paper 
or online, but the person who is helping them doesn't keep that 
information, because it just goes directly from the person who 
is applying through the system and the navigators will be 
instructed they are not to retain any personal information 
belonging to the people they are helping.
    Mr. Bentivolio. With that said, even though California has 
a law that says that assisters have to have a background check?
    Mr. Cohen. Yes.
    Mr. Bentivolio. And you also said that if somebody does 
misuse that privacy information, there is a $25,000 fine?
    Mr. Cohen. Correct.
    Mr. Bentivolio. And who investigates and enforces the 
assisters, the IRS?
    Mr. Cohen. No. It is our grant, so CMS will be doing the 
oversight with respect to the federally-facilitated 
marketplaces, and then the States will be doing it with respect 
to the State marketplaces.
    Mr. Bentivolio. So even though it goes on a computer or on 
paper, the assisters aren't supposed to retain it.
    Mr. Cohen. That is right.
    Mr. Bentivolio. But I am a little concerned when you--maybe 
I misunderstood, and you could clarify to me the qualifications 
to be an assister. When he asked you have to have a high school 
education, you didn't really answer that question. I mean, what 
are the requirements for being an assister; social worker, 
prior experience selling insurance?
    Mr. Cohen. Well, in the navigator grant process, you have 
to demonstrate both a track record and expertise of the people 
who are going to be performing this function. So whether 
someone could qualify who wasn't a high school graduate, I 
can't say. I don't believe that that is going to be the norm, 
no.
    Mr. Bentivolio. Okay. And you said how many hours of 
training in modules?
    Mr. Cohen. Twenty to 30 hours.
    Mr. Bentivolio. Twenty to 30 hours. I think that is the 
amount of time you need to study HIPPA, if I remember what my 
wife told me. She has been a nurse for 33 years.
    Mr. Cohen. Okay.
    Mr. Bentivolio. So 20 to 30 hours?
    Mr. Cohen. Yes.
    Mr. Bentivolio. How tall are you?
    Mr. Cohen. How tall am I? I am about 5'6.
    Mr. Bentivolio. Five foot six. Okay. I am 5'11, just short 
of 6'. Do you know how many pages are in the new regulations 
for the un-Affordable Health Care Act?
    Mr. Cohen. I don't.
    Mr. Bentivolio. Okay. It is 20,000. Can we get that up?
    Mr. Cohen. There it is.
    Mr. Bentivolio. There it is. Seven foot tall. And you 
expect an assister who is going to assist people on this un-
Affordable Health Care Act to understand 20,000 pages of new 
regulations?
    Mr. Cohen. No, I don't. They are not going to have to read 
all those regulations, and neither does an insurance agent have 
to read every----
    Mr. Bentivolio. Somebody does. And they have to digest that 
information to put it in these modules. Twenty thousand pages.
    Mr. Cohen. They will have the information that they need to 
help people understand the benefits of the law and get enrolled 
in coverage. That is what they need to do. They don't need to 
understand every aspect of what it takes to implement the 
Affordable Care Act. They will have the information that they 
need.
    Mr. Bentivolio. In reference to Congressman Connolly's 
definition of chutzpah, if I remember right, I wasn't a member 
of Congress at the time, but I remember my definition of 
chutzpah is saying something like you have to pass the bill 
before you can read it. In fact, truth in labeling, we would 
have said you have to pass it before you even write it, or 
something along those lines. Now, that takes a lot of chutzpah. 
And calling it a constitutional right, when in fact the Supreme 
Court said it was a tax, right? Didn't the Supreme Court the 
un-Affordable Health Care Act is a tax?
    Mr. Cohen. I believe the Supreme Court upheld the 
individual responsibility penalty as a tax.
    Mr. Bentivolio. Yes. It kind of reminds me of walking into 
a department store, not buying anything, and meeting the IRS 
agent outside and he says, hey, you have to pay a tax for not 
buying anything. You are taxed on failing to engage in commerce 
or buying any type of insurance under this program, correct?
    Mr. Cohen. People who are required to have health insurance 
under the law may be penalized if they don't have insurance 
under the law.
    Mr. Bentivolio. So they are going to be taxed for failing 
to engage in commerce, correct? Yes or no? I am running out of 
time.
    Mr. Cohen. I can't argue with you what Chief Justice 
Roberts decided in the case; he decided what he did.
    Mr. Bentivolio. It takes a lot of chutzpah to do that to 
the American people.
    I could use more time, but I yield back.
    Mr. Gosar. I thank the gentleman.
    I would like to recognize the gentleman from Georgia, Mr. 
Woodall.
    Mr. Woodall. Thank you, Mr. Chairman.
    Thank you, Mr. Cohen, for being here today. I am relatively 
new in Congress and I was not here when we voted on the bill 
and I did not read it. Your testimony titled Navigators and 
Assisters Programs, the copy that I have talks a lot about the 
Navigators Program but does not talk a lot about the Assisters 
Program. We have talked about the requirements for 
participating in the Navigator Program, how those grants go out 
the door. Where will I look to find the answers to what those 
regulations and requirements are for participating in the 
Assisters Program?
    Mr. Cohen. So we will be coming out with a final rule. 
Right now the Assisters Program is in a proposed rule, and we 
are reviewing comments and will be coming out with a final rule 
soon.
    Mr. Woodall. I may have asked the wrong question, Mr. 
Cohen, and, again, forgive me if I have. I was looking at the 
stack that Mr. Bentivolio put up there on the wall. I know 
there is a lot of reg that has to come out and, after I vote 
yes or no, I sometimes lose control over that and it goes down 
to the agency. I am actually thinking about the bill itself. 
Even the legislative language of the bill is explicit about how 
to participate. It is in this whole consumer choice section, it 
is all about protection, all about making sure we get the best 
people involved and making sure consumers have the best 
information they can. I see the Navigator side.
    Mr. Cohen. Right.
    Mr. Woodall. I just don't see the Assister side.
    Mr. Cohen. Well, what we propose in the rule that we put 
out was that States have come to us that are running their own 
exchanges, and what they have said is that----
    Mr. Woodall. Again, I might not be asking the right 
question. I am not interested in what you all are doing in your 
regulatory work.
    Mr. Cohen. Okay.
    Mr. Woodall. Because I think all of your regulatory work is 
simply responding to what we passed in the Affordable Care Act.
    Mr. Cohen. Right.
    Mr. Woodall. So in the Affordable Care Act I see all about 
how to participate in the Navigators Program; it defines it, 
tells me about it, tries to make it very robust.
    Mr. Cohen. Right.
    Mr. Woodall. I don't see anything about the Assisters 
Program.
    Mr. Cohen. It says that exchanges have to provide outreach, 
education, and consumer assistance, and that is what the 
Assisters Program is going to implement, that provision.
    Mr. Woodall. It says that States have to provide that?
    Mr. Cohen. If they are operating their own marketplace, 
yes.
    Mr. Woodall. And that the Feds will fund the provision of 
those services?
    Mr. Cohen. That funds are available under Section 1311 
while States are establishing their exchanges, yes.
    Mr. Woodall. So what do you make of the funds under 1311? 
Because, again, language is very explicit here: navigators will 
do this, navigators will do that, States will provide these 
services. And it says very clearly grants under this subsection 
shall be made from the operational funds of the exchange, and 
not Federal funds received by the State to establish the 
exchange. I read that as an explicit we don't want Federal 
funds used for this purpose. If you choose to participate in an 
exchange, you will be responsible for these costs. But you are 
going through an entire rule-making process, great machinations 
in order to make sure folks do receive Federal funds for this. 
Do you read this provision differently than I do?
    Mr. Cohen. I agree with you that the statute says that 
Federal funds under 1311 are not available to States to do 
their Navigator Programs, and what we said is but States still 
have this obligation to provide consumer assistance, and during 
the first year, before they are financially self-sustaining, 
they may use 1311 money to perform that function.
    Mr. Woodall. Let me make sure I----
    Mr. Cohen. But not to run their Navigator Program. They 
still have to have a Navigator Program, but they may use that 
funding to perform their statutory obligation under the law to 
do consumer assistance, to do consumer outreach as part of 
establishing the exchange before it is financially self-
sustaining.
    Mr. Woodall. That doesn't pass the smell test for me. You 
know, when is a cut not a cut? Only in Washington, right? You 
increase it by $2 and we call that a cut. Folks don't 
understand the Washington math. I don't think they understand 
the Washington rhetoric. I wish we were all in this together to 
try to make provisions better.
    Can I ask how many times have you gone to the committee of 
jurisdiction to say, you know what, you explicitly say we can't 
do this, but we think we need to do this, and can you change 
the law to give us that authority?
    Mr. Cohen. And I actually don't know the answer to that 
question.
    Mr. Woodall. Do you believe that it has happened, though?
    Mr. Cohen. I don't know.
    Mr. Woodall. You don't have any idea?
    Mr. Cohen. I don't.
    Mr. Woodall. Mr. Chairman, that is the crisis of confidence 
I think we perpetuate on the American people. Here is something 
that explicitly says thou shalt not. I wasn't here to vote on 
it, but my colleagues did, the Senate did; the President signed 
it. For whatever reason, we said thou shalt not. And when you 
decided you didn't like it, you just decided you would go a 
different way to do the exact same thing, the exact same way, 
but call it something different, and get another pot of money. 
Not even knowing if you ever came to Congress to say we think 
this could be done better, will you give us that authority. 
Folks say that the Administration and Congress can't work 
together; hard to work together when we don't even get the 
invitation and the first thing we see is the rule-making that 
seems to be directly contradictory to statutory authority, and 
I deeply regret that both for us and for the American people.
    I yield back, Mr. Chairman.
    Mr. Gosar. I thank the gentleman of Georgia.
    The gentleman from Georgia, Mr. Collins, is now recognized.
    Mr. Collins. Thank you, Mr. Chairman. We will just continue 
the Georgia pattern here for just a moment. I want to have a 
dialogue and I have a lot of questions here that I think can be 
answered sort of yes, no, or just say you will provide. I am 
leaving it open at this point.
    One of the questions that always comes up here, especially 
in these oversight hearings, is the issue of oversight, and it 
is one of those things that, after something happens, well, if 
we had had better oversight, we would have caught it. I 
understand explicitly the States are supposed to provide for 
their own oversight in dealing with their program; however, 
States such as our own, Congressman Woodall and myself, have 
chosen not to participate in this. So the Federal program will 
have to do. Do you have a program set up for oversight and 
management that would oversee this if it falls back on you to 
instruct this?
    Mr. Cohen. And you are speaking about the Navigator 
Program?
    Mr. Collins. Yes.
    Mr. Cohen. Yes, we absolutely do. It is consistent with the 
way we manage grants.
    Mr. Collins. I apologize, sir. Do you have these written 
down? Are these policies written down? Is this oversight plan 
written down?
    Mr. Cohen. I am hesitating because I am not certain whether 
there is a specific oversight plan for this program written 
down. There are rules that we follow in terms of how we do 
oversight when we do grants administration that are not unique 
to this program.
    Mr. Collins. But as far as this program, especially in 
light of what this program is going to entail, it seems to me 
that there should be, because you are requiring the States to 
have a written oversight program for this, and an oversight 
plan.
    Mr. Cohen. I will have to look.
    Mr. Collins. Okay, so at this point we don't have one.
    Mr. Cohen. I will have to look; I am not certain.
    Mr. Collins. If you do, will you provide it to this 
committee?
    Mr. Cohen. I will look and we will certainly work with you, 
yes.
    Mr. Collins. Also, you said on awarding--and I am going 
simply by your statement that you provided for this committee. 
It said you were using an evaluation rubric developed by HHS 
for the qualified unbiased expert contractors who will review 
all the applications. Do you have that rubric?
    Mr. Cohen. I am sure we do.
    Mr. Collins. Okay, I am trying to be calm here. You are 
sure we do?
    Mr. Cohen. I am sure we do, yes. Yes.
    Mr. Collins. And can you provide it?
    Mr. Cohen. We will work with you to get that for you, sure.
    Mr. Collins. Okay.
    Mr. Cohen. And let me, as long as you are on that subject, 
if I might, because I made a statement earlier that I am 
informed is not correct, so I want to make sure I correct it. I 
was talking about the grant review panels and I said that 
people from HHS and CMS won't be on them, and that is not 
right; there could be people from HHS and CMS who could be on 
them. There won't be anyone on them who is involved in the 
program that is running the Navigator Program.
    Mr. Collins. Okay. All right.
    Mr. Cohen. So I just wanted to correct that.
    Mr. Collins. Same page you discuss that these folks will 
all comply with different standards. In your statement you said 
comply with privacy and security standards, among other 
activities. Do you have written down what these privacy and 
security standards are? Are they written down anywhere?
    Mr. Cohen. The privacy and security standards are in our 
proposed rule, I think, yes.
    Mr. Collins. Okay. Can you provide those for the committee?
    Mr. Cohen. Yes.
    Mr. Collins. Thank you. Can you ensure us that the 
navigators and assisters who will have access to extremely 
personal and sensitive information will be held to the same 
hiring standards of U.S. Census employees?
    Mr. Cohen. I hesitate there because I am not responsible 
for the census, so I don't know what they are required to do. I 
know that they will be subject to the standards that CMS 
employs with respect to all the grants that it does, there is 
nothing different here.
    Mr. Collins. Thank you. Will you commit to requiring 
background checks equivalent to those that the U.S. Census uses 
before the rule is finalized?
    Mr. Cohen. In the proposed rule we have not required 
background checks, and I can't say what is going to happen in 
the final rule, but we have given flexibility to States, and 
some States have decided that they are going to require them, 
yes.
    Mr. Collins. And not to be argumentative here, I am not 
trying to be. This is so important for people right now because 
this is absolutely changing what we do, and I believe in a very 
bad way. But in a security situation here I would encourage 
you, if that is not being given a lot of thought, as far as 
security background checks, you are dealing with people's lives 
here, and I would believe that that would be an important 
aspect.
    Moving on. Are you aware of the secrecy law passed by the 
State of California to conceal spending on government 
contractors setting up the California exchanges?
    Mr. Cohen. I am not, actually.
    Mr. Collins. From April 2012 to July 2012, did you serve as 
chief counsel to the California Health Exchange Board?
    Mr. Cohen. I did.
    Mr. Collins. Okay. Two weeks ago it was revealed that the 
State of California passed a law allowing State exchanges to 
conceal spending on the contractors that will perform most of 
its functions, potentially shielding the public from seeing how 
hundreds of millions of dollars are spent. These contracts will 
be funded largely by taxpayer dollars. Do you believe taxpayers 
have the right to know how Federal taxpayer dollars are being 
spent to implement State-based exchanges?
    Mr. Cohen. Well, I know that we review the budgets and the 
expenditures of all the State-based exchanges, including 
California's, so whatever law California passes is not going to 
affect our ability to do oversight over their activities.
    Mr. Collins. Okay, but at this point I think the question 
here is should taxpayers have the right to know which companies 
receive these contracts and how much, and how are you going to 
balance that if you have set the State exchange up to do it 
their own way, then you are going to say now that you are going 
to override California law?
    Mr. Cohen. No. Under the terms of the grant, we have the 
right to look at what they are spending, and we are looking 
at----
    Mr. Collins. Which will be public record?
    Mr. Cohen. I don't know the answer to that.
    Mr. Collins. Okay. So the concern comes here is it secret. 
And my time has expired, but these are the kinds of questions, 
just providing transparency if we are heading down this road. 
But that is a concern, because if we are going into this and we 
don't have those answers, that was just the reason for these 
questions. I appreciate your time.
    Mr. Chairman, I yield back.
    Mr. Gosar. I thank the gentleman.
    What we are going to do, Mr. Cohen, is I am going to 
acknowledge the gentlelady from California, then myself to 
close off the meeting. Thank you.
    The gentlelady from California, Ms. Speier.
    Ms. Speier. Thank you, Mr. Cohen.
    And, Mr. Chairman, thank you.
    Do you feel like you are being sabotaged?
    Mr. Cohen. Well, I prefer not to use that word.
    Ms. Speier. I think you are being sabotaged. And I think it 
is un-American at this point in time, when this law has passed, 
we are in the process of implementing it, that you don't have 
the resources to do the job. You are going to be doomed if you 
don't get the resources you need.
    We just spent over $1 billion in the Air Force on a 
computer system that didn't work and we had to trash. A billion 
dollars. And you have $54 million to do your outreach? How much 
do you need to do your outreach?
    Mr. Cohen. I don't have a number in my head, but we 
certainly could use additional funding to be able to do 
additional outreach and to perform all of the things that we 
need to do under the law, definitely.
    Ms. Speier. All right, so I think what the committee should 
benefit from is having an estimate from you of what you really 
need in order to do the job and do it well. I mean, there is a 
lot of stirring up the pot today about how this is going to 
fail. Well, we can guarantee that it will fail if we don't give 
you the resources to actually roll it out properly. So tell us 
what you need. If we can spend $1 billion on a failed system 
for the Air Force computers, we can certainly spend enough 
money so that every American has the information they need to 
access the health care and the health insurance that they are 
now qualified to receive.
    Mr. Cohen. I do know that in the President's budget he has 
requested about $1.5 billion for implementation of the 
exchanges.
    Ms. Speier. And that includes the outreach?
    Mr. Cohen. Yes.
    Ms. Speier. $1.5 billion.
    Mr. Cohen. That is in the 2014 budget.
    Ms. Speier. So maybe that money we spent on that failed 
computer system could have been better spent here.
    I yield back.
    Mr. Gosar. I thank the gentlelady.
    Mr. Cohen, how closely is HHS working with IRS on Obamacare 
implementation?
    Mr. Cohen. We are working closely with IRS on those aspects 
of implementation where we have to work together, so, for 
example, as you know, in determining whether a person is 
eligible for Medicaid or CHIP on the one hand, or tax credits 
in the marketplaces on the other, income is a test, and we are 
working with IRS on verifying people's income when they apply.
    Mr. Gosar. So the IRS is going to be gathering and sending 
this enormous amount of taxpayer information to all the 50 
exchanges. All 50 exchanges are to be ready by October 1st, 
right?
    Mr. Cohen. Yes.
    Mr. Gosar. So will there be any problems with this massive 
amount of data sharing?
    Mr. Cohen. No. And data sharing may not be exactly the 
right way to look at it. Basically what will happen is people 
will put information about their income in an application; that 
information will be verified by data that comes from the IRS, 
but there is no exchange of information from the IRS to the 
exchange; the information goes out, it is verified, and it 
comes back.
    Mr. Gosar. But it is still from the exchange going to the 
IRS, and that is where I am going.
    Mr. Cohen. It is going to the data hub. Information is 
coming from the IRS to the data hub and from the exchange to 
the data hub, and there is a comparison and then there is an 
answer back. But the tax information isn't actually going to 
the exchange.
    Mr. Gosar. Gotcha. Okay, so what will the navigators and 
assisters tell individuals about the subsidy reconciliation 
process?
    Mr. Cohen. They will give them accurate information and 
they will encourage them, certainly, to make sure that if their 
income situation changes over the course of the year, that they 
should update their account to make sure that that is 
reflected.
    Mr. Gosar. Okay, so will navigators and assisters tell 
individuals that a change in income, marital status, household 
size, or workplace insurance may make them ineligible for tax 
credits and, if not, almost certainly will impact the size of 
their tax credit?
    Mr. Cohen. They will certainly let them know that if they 
have a change in circumstance, they need to provide that 
information, yes. It is important that they do so.
    Mr. Gosar. Okay. So will navigators and assisters tell 
individuals that the Government will be sending the tax credit 
to the insurance companies, but if an overpayment occurs, the 
IRS will come after the individual, not the insured, to collect 
that overpayment?
    Mr. Cohen. They will certainly let them know that if their 
situation changes, they need to put that information in there 
so that they can avoid getting a tax credit to which it turns 
out they are not entitled to at the end of the year.
    Mr. Gosar. So will navigators and assisters tell 
individuals that the failure to report a change in income, 
marital status, household size, workplace insurance, and some 
other criteria may cause them to owe hundreds of thousands of 
dollars to the IRS when they file their taxes?
    Mr. Cohen. Hundreds of thousands of dollars? I am not aware 
of that number.
    Mr. Gosar. Hundreds or thousands.
    Mr. Cohen. Oh, hundreds or thousands. I see. You scared me 
there for a second.
    Mr. Gosar. The IRS and hundreds of thousands always scares 
a taxpayer.
    Mr. Cohen. I think that it will be very important for 
people to understand that they need to update their information 
if their situation changes, and that information will certainly 
be provided by navigators, yes.
    Mr. Gosar. Okay. So what will a navigator or assister do if 
an individual applying for health insurance doesn't have a W-2 
or an income tax return?
    Mr. Cohen. I don't think it is a requirement that a person 
have a W-2 or an income tax return. If I understand the way the 
application works correctly, you can enter in the amount of 
income that you had, and if you have filed taxes, that is the 
data that will be accessible through the data hub from the IRS, 
what your tax return was last year, and that is what we will be 
checking against.
    Mr. Gosar. Okay, so what will the navigator or assister do 
if an individual reports that they are paid under the table?
    Mr. Cohen. That is a good question. I will have to think 
about that and talk to folks.
    Mr. Gosar. We will expect an answer.
    Couple last questions. Will you commit to the committee to 
getting us a list of all phone calls placed to whom they were 
made and the other solicitations that the Secretary made to 
fund Enroll America and for all other purposes?
    Mr. Cohen. I think you are asking the wrong guy for that.
    Mr. Gosar. Well, you can carry the message back. I mean, 
you are the messenger from HHS, so you can be the messenger 
back.
    Mr. Cohen. I am happy to be a messenger back.
    Mr. Gosar. Will you also commit to getting the committee a 
list of all the amounts that were promised or received?
    Mr. Cohen. Same answer. I will take the message back. I 
can't commit anything to you because that is not my job.
    Mr. Gosar. Well, one thing I want to end with here is I 
have done working with patients with insurances, with privacy 
compliance for 25 years being a dentist. It is not a simple 
task at all. And, to me, when we see that we are still 
developing modules and that we don't have them in place, and we 
are coming up on June, and then we say that we already have 
some type of oversight made, I find it interesting that it is 
either the chicken or the egg. I think you have to have the 
modules first, before you outline a protocol of oversight. 
Wouldn't you agree?
    Mr. Cohen. I think we are developing all those things and 
we will have them all in place in time for open enrollment in 
October.
    Mr. Gosar. Well, I think some of your comments I applaud, 
that you are looking at building these modules, but I also 
think that how you develop those modules develops your 
oversight plan, so something off the shelf isn't going to be 
applicable 100 percent of the time. So it seems to me you are 
going to build these modules and then behind it is going to be 
coming oversight. So we would also like not only the modules, 
but the oversight plan to the committee as well.
    Mr. Cohen. That is a fair point and we will work with you 
to get you that.
    Mr. Gosar. I thank you very, very much.
    Seeing there are no other questions, I adjourn this 
meeting. Thank you.
    [Whereupon, at 12:13 p.m., the subcommittee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record


[GRAPHIC] [TIFF OMITTED] 82107.012

[GRAPHIC] [TIFF OMITTED] 82107.013

[GRAPHIC] [TIFF OMITTED] 82107.014

[GRAPHIC] [TIFF OMITTED] 82107.015

[GRAPHIC] [TIFF OMITTED] 82107.016

[GRAPHIC] [TIFF OMITTED] 82107.017

[GRAPHIC] [TIFF OMITTED] 82107.018

[GRAPHIC] [TIFF OMITTED] 82107.019

                                 <all>

</pre></body></html>
